Audit Report




OIG-07-006
Audit of the United States Mint’s Fiscal Year 2005
Financial Statements


November 11, 2006




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             November 11, 2006


            MEMORANDUM FOR EDMUND C. MOY, DIRECTOR
                           UNITED STATES MINT

            FROM:                  Michael Fitzgerald,
                                   Acting Deputy Assistant Inspector General
                                     for Financial Management and Information
                                     Technology Audits

            SUBJECT:               Audit of the United States Mint’s Fiscal Year 2005
                                   Financial Statements


            I am pleased to transmit the attached audited United States Mint (Mint) financial
            statements for fiscal year 2005. We contracted with the independent certified
            public accounting firm KPMG LLP to audit the financial statements of the Mint as of
            September 30, 2005 and for the year then ended. The contract required that the
            audit be performed in accordance with generally accepted government auditing
            standards; applicable provisions of Office of Management and Budget Bulletin No.
            01-02, Audit Requirements for Federal Financial Statements; and the GAO/PCIE
            Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report on Financial Statements;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found that the financial statements were fairly presented, in
            all material respects, in conformity with accounting principles generally accepted in
            the United States of America. However, KPMG LLP’s Report on Internal Control
            Over Financial Reporting contained the following reportable condition which was
            not considered a material weakness:

                •   Improvement is needed in Financial Accounting and Reporting

            KPMG LLP found no instances of reportable noncompliance with laws and
            regulations, exclusive of the Federal Financial Management Improvement Act of
            1996 (FFMIA), tested. However, KPMG LLP’s tests of FFMIA Section 803 (a)
            requirements disclosed one instance in which the Mint’s financial management
systems did not substantially comply with the United States Government Standard
General Ledger at the transaction level.

KPMG LLP also issued a management letter dated November 3, 2006, discussing
other matters involving internal control over financial reporting and its operation
that were identified during the audit but were not required to be included in the
auditors’ reports.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached Independent Auditors’ Report on Financial Statements dated
June 16, 2006, except as to note 19 which is dated November 3, 2006, and the
Independent Auditors’ Reports on Internal Control over Financial Reporting and
Compliance and Other Matters, dated June 16, 2006, and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789.

Attachment
DEPARTMENT OF THE TREASURY
    UNITED STATES MINT

        Annual Report

      September 30, 2005
                                                                       Table of Contents



                                                                                                                                                               Page

Director’s Letter .................................................................................................................................................. 1

Message from the Chief Financial Officer .......................................................................................................... 3

Management’s Discussion and Analysis............................................................................................................. 5

      Operational Overview................................................................................................................................... 6

      Performance Section................................................................................................................................... 19

Limitations to the Financial Statements ............................................................................................................ 25

Independent Auditors’ Report on Financial Statements.................................................................................... 26

Financial Statements ......................................................................................................................................... 28

Notes to the Financial Statements ..................................................................................................................... 34

Independent Auditors’ Report on Internal Control over Financial Reporting .................................................. 49

Exhibit I – Reportable Condition ...................................................................................................................... 51

Exhibit II – United States Mint Response to the Draft Auditors’ Reports........................................................ 55

Independent Auditors’ Report on Compliance and Other Matters.................................................................... 56
1
2
3
4
     MANAGEMENT’S DISCUSSION & ANALYSIS

                                                 OVERVIEW
The United States Mint’s financial statements are prepared in accordance with the Chief Financial Officer’s (CFO)
Act of 1990. The financial statements represent the operations of the entire United States Mint, comprised of the
circulating, numismatic, and protection programs. This Management’s Discussion and Analysis provides an
operational overview and serves to explain the financial statements as well as to explain program performance. The
United States Mint uses a set of key performance indicators to manage operations. An analysis of these indicators
follows the discussion of the financial results.




                                                   MISSION
The United States Mint was established in 1792 and became a bureau of the Department of the Treasury (Treasury)
in 1873. The United States Mint is the world’s largest coin manufacturer with operations in California, Colorado,
Kentucky, New York, Pennsylvania and Washington, D.C. The United States Mint’s mission is to apply world-class
business practices in manufacturing, selling and protecting the nation’s coinage and assets.

Since FY 1996, the United States Mint has been operating under the United States Mint’s Public Enterprise Fund
(PEF). As authorized by Public Law 104-52 (31 U.S.C. § 5136), the PEF eliminates the need for appropriations to
the United States Mint. Proceeds from the sale of circulating coins to the Federal Reserve Banks system and the sale
of numismatic and bullion coins and other products to customers worldwide are the sole sources of funding for
United States Mint operations. This includes funding for costs associated with the production of circulating and
numismatic coins and coin-related products and protective services. Revenues in excess of costs are returned to the
United States Treasury General Fund.




                                                         5
                         OPERATIONAL OVERVIEW
MANAGEMENT PRIORITIES:
The United States Mint continually seeks to be a model government agency that matches world-class business
practices through higher yields, lower costs, proper use of technology, efficient production, timely delivery of
products and exceptional customer service throughout its operations. Management’s priorities in FY 2005 included
growing revenue, improving efficiency and fostering a model workplace.


GROWING REVENUE
The United States Mint’s goal is to design, sell and deliver quality products to the American people. Our objectives
are to provide quality products and services that are responsive to our customer’s needs and desires; provide
excellent customer service, meeting best in business standards for customer service; and redesign America’s coinage
and medals by researching and adopting innovative state of the art manufacturing technology, techniques and
processes.


NEW PRODUCTS AND PROGRAMS:

•    2005-DATED NICKELS: On March 1, 2005, the United States Mint released the 2005-dated “American
     Bison” nickel -- the third nickel design in the United
                                                                Kudos from the President of the United States:
     States Mint’s Westward Journey Nickel Series™ and first    In a letter to former Director Henrietta Holsman Fore
     design of 2005. This nickel bears a new image of President dated March 31, 2005, President George W. Bush
     Thomas Jefferson on its obverse (heads) side and a side    commended Director Fore and United States Mint
     view of a grazing American Bison, on the reverse (tails)   employees for their success in bringing the design of the
                                                                new 2005 “American Bison” nickel to fruition. (The
     side.                                                      “American Bison” nickel was ceremonially launched in
                                                                       March 2005.)




                                         The “American Bison” Nickel

     On June 20, 2005, the United States Mint began producing the 2005-dated “Ocean in View” nickel -- the
     fourth nickel design in the United States Mint’s Westward Journey Nickel Series™. The 2004-dated nickels in
     the series are the “Peace Medal” and the “Keelboat” nickels. The new design features a scene of the Pacific
     Ocean and an inscription reflecting an excited entry in the journal of Captain William Clark on November 7,
     1805, believing he had finally reached the Pacific Ocean after so many months of arduous travel. The “Ocean
     in View” reverse design replaces the reverse design on the American Bison nickel. The United States Mint
     held the launch ceremonies for the “Ocean in View” nickel in early August in Washington and Oregon. The
     Federal Reserve Bank released the “Ocean in View” nickel in August 2005.



                                                           6
                                        The “Ocean in View” Nickel

•   CHIEF JUSTICE JOHN MARSHALL SILVER DOLLAR: Public Law 108-290 authorized
    a maximum mintage of 400,000 Chief Justice John Marshall Silver Dollars to commemorate the 250th
    anniversary of the birth of John Marshall on September 24, 1755, and to pay tribute to his service to the
    Supreme Court of the United States and to our Nation. A portion of the proceeds from the sale of each coin is
    authorized to be paid to the Supreme Court Historical Society. Both the proof and uncirculated versions of the
    coin are minted at the United States Mint at Philadelphia and carry the “P” mint mark.

    Designed by United States Mint sculptor-engraver John Mercanti, the obverse of the Silver Dollar features a
    rendition of a portrait of John Marshall originally painted by Charles-Balthazar-Julien Fevret de Saint-Memin
    in March 1808. The reverse, by United States Mint sculptor-engraver Donna Weaver, features a view of the
    Old Supreme Court Chamber, located inside the Capitol, on the side which now houses the United States
    Senate.




                          The 2005 Chief Justice John Marshall Silver Dollar

•   THE 2005 MARINE CORPS 230TH ANNIVERSARY SILVER DOLLAR: From the
    battlefields of the American Revolution, to the perilous streets of Baghdad, U.S. Marines have stood in tireless
    defense of America, her people and her freedom. As authorized by Public Law 108-291, this year, the United
    States proudly acknowledges them for serving with honor, courage and commitment. The United States Mint
    worked with the Marine Corps Heritage Foundation and launched the Marine Corps 230th Anniversary Silver
    Dollar in Quantico, Virginia on July 20, 2005. The coins went on sale the same day in four different product
    options: 1) a proof silver dollar; 2) an uncirculated silver dollar; 3) The Marine Corps Coin & Stamp Set,
    which includes a Marine Corps 230th Anniversary Uncirculated Silver Dollar and an uncancelled 1945 Iwo
    Jima stamp, and is limited to 50,000 units; and 4) the 2005 United States Mint American Legacy CollectionTM,
    which includes proof versions of both the Marine Corps 230th Anniversary Silver Dollar and the Chief Justice
    John Marshall Silver Dollar as well as proof versions of all eleven 2005-dated circulating coins. This set is
    limited to 100,000 units.

    The Marine Corps 230th Anniversary Silver Dollar bears the likeness of what is believed to be the most
    reproduced image in the history of photography. The image of six Marines raising the American flag on
    volcanic Mt. Suribachi on the island of Iwo Jima has become one of the most recognizable symbols in the
    history of warfare. It is emblematic of Marine tenacity, determination, courage and commitment. Iwo Jima
    means “sulfur island” in Japanese, and the name fits the horrific battle that was fought and won only two
    months before the end of World War II.



                                                        7
     A surcharge from the sale of each coin is authorized to go to the Marine Heritage Center in Quantico,
     Virginia, which is currently being developed through a partnership between the Marine Corps Heritage
     Foundation and the United States Marine Corps.




                            The Marine Corps 230th Anniversary Silver Dollar


SPEEDING THE DEVELOPMENT OF NEW PRODUCTS: The United States Mint is working to
speed the introduction of new products to the market. Speeding the process to bring coins from legislation or
authorization to the market leads to increased revenues and profits. Less time and money are spent on activities that
occur before the United States Mint receives revenues from sales to customers. Customers are presented with
increased product offerings, available more times throughout the year. At the beginning of FY 2005, it took an
average of 395 days to bring a new product to market. It now takes 195 days but our goal is to accomplish this in
less than 100 days. To achieve this goal, a digital design process for coins and medals was developed in order to
improve the product planning and development process. As a result of our focus on production planning and
reducing time to market, all of our 2005 annual products were released one and a half to five and a half months
earlier than the 2004 versions.


IMPROVING EFFICIENCY

SALES, GENERAL AND ADMINISTRATIVE (SG&A) EXPENSES: These are the overhead,
marketing and advertising costs of running the United States Mint. In a production-oriented agency like the United
States Mint, the focus is on minimizing SG&A costs where practicable to improve financial performance and to
return more funds to the Treasury General Fund. In FY 2005, SG&A costs increased by $2.9 million to $165.5
million from $162.6 million in FY 2004, a 1.8 percent increase. The FY 2005 amount includes a one-time charge
from a legal settlement of $9.0 million.

OFFICE SPACE: The United States Mint started to consolidate office space in FY 2004 to cut costs. By
subleasing about 135,000 square feet of headquarters office space in Washington, DC, the United States Mint saved
more than $5.5 million during FY 2004, and approximately $6.5 million in FY 2005.

SHARED SERVICES: Under the Office of Management and Budget’s Line of Business Initiative, all Federal
agencies are now expected to provide certain shared services as a Center of Excellence (COE) or consider migrating
to a designated COE such as the Bureau of Public Debt’s (BPD) Administrative Resource Center (ARC). In FY
2005, the United States Mint began work to transfer to ARC many transactional functions associated with Travel,
Human Resources and Procurement, and will continue to work with BPD to see that these functions are successfully
transferred in FY 2006.


FOSTERING A MODEL WORKPLACE

DEVELOPING SKILLS IN THE WORKFORCE: A model workplace is necessary to accomplish
identified initiatives. The United States Mint continues to foster a model workplace in which all employees are
treated with dignity and respect; work together harmoniously; are valued for their contributions; are rewarded fairly
for their achievements and receive training and assignments for the future. Some of the model workplace
achievements include:



                                                          8
          Improving communications between managers and employees by getting feedback from the employees
           via the United States Mint Employee Pulse-Check survey as well as having managers walk the work
           areas to personally speak with employees regarding any concerns they may have;
          Improved communications to employees by delivering new informational materials, workshops and
           program events Mint-wide. Under Performance Management, Employee Labor Relations (ELR) staff
           fostered a new relationship between organizational performance management and individual performance
           management. Our progress and future commitments in the evolution of our Performance Management
           Program (PMP) helped the Department of Treasury earn a “GREEN” rating in the performance sub-
           element of the President’s Management Agenda (PMA);
          The Equal Employment Opportunity (EEO) office experienced a decrease in the number of formal
           complaint activities in FY 2005 – 22 formal complaints were filed, compared to 36 formal complaints
           filed in FY 2004. The informal complaint activity also decreased from 42 in FY 2004 to 41 in FY 2005.
           There were 41 Alternative Dispute Resolution (ADR) cases in FY 2005. This represents a 52 percent
           reduction in ADR cases since FY 2003, when the United States Mint had 86 cases; and
          We implemented a Rotational Assignments initiative to broaden employee understanding of the
           organization – like those used by other Federal organizations and private companies to familiarize
           employees with other employees’ jobs.

SAFETY: The well-being of our employees and the protection of our assets are essential in the world today. To
strengthen our ability to deter and respond to all security threats, we are pursuing innovative threat assessment
strategies, including collaboration with other law enforcement agencies, to effectively prevent and counteract any
security threats against the United States Mint operations.

Three years after the United States Mint at Philadelphia was cited for 81 safety violations (139 specific items), our
largest coin manufacturing facility was recognized as one of the
safest worksites in the country. The ceremony was held in front of       Philadelphia Mint receives OSHA Award:
the United States Mint building in downtown Philadelphia and paid        “I am thrilled to be here today to join in
tribute to a team of 500 employees, managers and union leaders who       commending this facility for the significant strides
joined forces to combat workplace hazards and make our facility a        it has made,” said Acting Deputy Secretary Arnie
                                                                         Havens. “By working together, OSHA,
model for safety.                                                        management, employees and union leaders
                                                                              established reforms that have led to meaningful
At the close of the award ceremony, the Occupational Health and               improvements in workplace safety.”
Safety Administration’s (OSHA) Voluntary Protection Programs’                 “The Philadelphia Mint’s success is the perfect
(VPP) Star status flag was raised, symbolizing a triumphant moment            example of what can happen when an organization
                                                                              fully commits to worker safety and health,” said
for the facility. In 2002, the facility labored through a six-week            Richard D. Soltan, regional administrator for
suspension of production after former Director Henrietta Holsman              OSHA in Philadelphia.
Fore ordered a top-to-bottom review to address the safety issues.
OSHA’s Star status is the highest honor a worksite can achieve under
the VPP safety program.


LOOKING AHEAD
Circulating coin shipments are forecasted to hold steady or grow moderately over the next few years. Although the
economy is expected to grow at a steady pace, the increased use of electronic transactions, coin counting machines,
and improved distribution will likely moderate demand for newly minted coins. Continued success will demand new
products, new markets, new technologies, greater efficiencies and, most importantly, commitments to and from our
people.

Production of quality products and excellent customer services are paramount. In FY 2006, the United States Mint
will focus on:

HUMAN CAPITAL STRATEGY: To best position the United States Mint for the future, the United States
Mint embarked on a major workforce planning effort led by the United States Mint Workforce Planning Steering
Committee comprised of senior leaders and managers, which identified the organization’s human capital needs and
workforce levels for the next five years. Workforce planning will be conducted on an on-going basis. The effort will
result in:


                                                             9
         Identification of the organization’s human capital needs and workforce levels over the next five years in
          the context of the United States Mint’s strategic plan and projected business environment and direction;
         Comparison of the agency’s current skill profile to its future skill needs and identify the gaps that result;
         Recommended strategies that specifically address overcoming identified skill gaps; and
         Forward-looking analysis of factors and expected trends affecting occupations specific to the United
          States Mint that may affect retention, recruitment and employee development.


24-KARAT GOLD BULLION COINS: The new 24-karat gold bullion coins currently being developed
by the United States Mint will complement the popular 22-karat gold American Eagle coins. The new coins will
give investors a second option backed by the United States Government in the global precious metals market.

PRESIDENTIAL $1 COIN ACT OF 2005: Public Law 109-145 provides for the manufacture of 24-
karat gold bullion coins in 2006, Presidential $1 coins with First Spouse gold bullion coins starting in 2007, and
Lincoln cent designs in 2009.

SUCCESSOR TO THE 50 STATE QUARTERS® PROGRAM: Through 2005, this program has
returned $6 billion to the Treasury General Fund. The program will end in 2008. The United States Mint is working
with Congress and Treasury to develop strategies for a successor program to the 50 State Quarters® Program.

LEAN ENTERPRISE: Lean Enterprise is a process designed to bring about rapid, step-change improvements
to the performance of an organization through an overhaul of the value stream. It is comprised of a comprehensive
set of elements, rules and tools that focus on value, the elimination of waste, and continuous incremental
improvement, including improved supplier partnerships to increase efficiency and cut costs.

RESEARCH AND DEVELOPMENT PROGRAM: The United States Mint plans to nurture a small
Research and Development (R&D) program that will explore new manufacturing, metal fabrication and finishing
techniques that will improve its manufacturing operations and/or increase sales of its products. The program will
not only explore what other mints are doing around the world, but will also explore new technologies developed by
sister government agencies that might have application. We are also reviewing and considering cost effective
alternative materials for circulating and numismatic coin denominations. The first comprehensive coinage material
study was started in fiscal year 2005.




                                                          10
THE 50 STATE QUARTERS® PROGRAM:
(A 10-YEAR CELEBRATION OF OUR NATIONAL HERITAGE)
A significant facet of United States Mint operations is the 50 State Quarters® Program, which was launched in 1999
to commemorate and honor each of the 50 States over a ten-year period. Five new commemorative quarter-dollar
coins are produced each year. Each quarter’s reverse celebrates one of the 50 States with a design honoring that
State’s unique history, traditions and symbols. The quarters are released in the same order that the states ratified the
United States Constitution or were admitted into the Union. In FY 2005, the United States Mint issued quarters
commemorating Wisconsin, California, Minnesota, Oregon and Kansas.


United States Mint 50 State Quarters® released in FY 2005:

Wisconsin: Engraver, Alfred Maletsky, depicts an agricultural theme featuring the head of a cow,
a round of cheese and an ear of corn. The design also bears an inscription of the State motto,
“Forward.”




California: Entitled, “John Muir / Yosemite Valley,” was engraved by Don Everhart and depicts
naturalist and conservationist John Muir admiring Yosemite Valley’s monolithic granite headwall
known as Half Dome with a soaring California condor.




Minnesota: Was engraved by Charles Vickers and depicts a tree-lined lake with two people
fishing, a loon on the water and a textured outline of the state surrounding its nickname, “Land of
10,000 Lakes.”




Oregon: Was engraved by Donna Weaver and features a portion of “Crater Lake,” viewed from
the south-southwest rim to include Wizard Island and Watchman and Hillman Peaks on the lake’s
rim.




Kansas: Entitled, “Buffalo and Sunflower,” and features a buffalo and sunflower motif. This was
engraved by Norman Nemeth.




                                                          11
                                        FINANCIAL AND PROGRAM ANALYSIS


OPERATIONS

                    Revenue and Other Financing Sources                              Net Profit and Other Financing Sources
                                  (OFS)                                                               (OFS)


                                                                                    3,000
                    4,000
                                                                                    2,500




                                                                     ($ millions)
     ($ millions)




                    3,000                                                           2,000
                                                                                    1,500
                    2,000                                                           1,000
                    1,000                                                             500
                                                                                      -
                      -                                                              (500)
                            2000 2001 2002 2003 2004 2005                                    2000 2001 2002 2003 2004 2005


                            Revenue   Other Financing Sources                                 Net Profit   Other Financing Sources




Beginning with the FY 2005 financial statements, the United States Mint no longer includes the cost of protecting
the nation’s gold and silver reserves as an offset against “Other Financing Sources” (seigniorage). Therefore, the
Protection Program, which represents the cost of protecting the nation’s gold and silver reserves, reflects a loss on
the Statement of Net Cost and the Circulating Program reflects a zero net cost because revenue equals total costs.
The cost of securing Mint facilities, staff, and assets is included in the cost of production and is a proper charge to
the Circulating and Numismatic Programs. This change was made as part of the conversion to a government GAAP
presentation of the FY 2005 financial statements. The United States Mint’s total earned revenue of $1,048.3 million
plus other financing sources (seigniorage) of $722.7 million increased to
$1,771.0 million in FY 2005 from FY 2004 amounts of $1,006.3 million                 Net Profit & Other Financing
for earned revenue plus $644.1 million for other financing sources                         Sources Margins
(seigniorage), which totals $1,650.4 million. Earned revenue from
circulating coinage represents the costs incurred to make the coin.
Circulating earned revenue from coins shipped to the Federal Reserve               50.0%     43.1%         39.4%
Bank (FRB) of $445.4 million plus the Circulating other financing sources          40.0%
(seigniorage) of $699.4 million increased to $1,144.8 million in FY 2005           30.0%
from $395.8 million earned revenue plus $597.7 million for other                   20.0%
financing sources (seigniorage) for a total of $993.5 million in FY 2004.          10.0%
Other financing sources (seigniorage) from circulating coinage represents           0.0%
the difference between the face value of circulating coinage and the costs                  FY 2005       FY 2004
(which includes the metal, manufacturing, and transportation costs) to
produce those coins. Numismatic sales (net of surcharges and
commissions) to the public of $588.2 million plus numismatic sale of circulating coinage earned revenue of $14.6
million decreased to $602.8 million in FY 2005 compared to $594.8 million for numismatic sales to the public plus
$15.7 million numismatic sales of circulating coinage earned revenue which totaled $610.5 million in FY 2004.
Total numismatic sales of circulating coinage earned revenue of $14.6 million plus other financing sources
(seigniorage) of $23.3 million decreased to a total of $37.9 million in FY 2005 from $15.7 million and $46.4 million
which totaled $62.1 million, respectively, in FY 2004.
The net program profits plus other financing sources increased to $764.0 million in FY 2005 from $650.1 million in
FY 2004. Total net profit margins1 increased to 43.1 percent compared to 39.4 percent in the prior year despite a
significant rise in the prices of the metals that are used in the fabrication of coins. The United States Mint was able

1
  Net Profit Margin is a ratio that compares net profit to revenue. It tells you how much profit a company makes for
every $1 it generates in revenue. The United States Mint’s net profit margin refers to net program profit plus other
financing sources as a percentage of earned revenues plus seigniorage.
                                                                12
to increase margins by shipping more coins, improving time to market and reducing manufacturing and Selling,
General and Administrative (SG&A) costs. As a result of the improved operating results and profits, the United
States Mint returned $775 million to the Treasury General Fund in FY 2005 compared with $665 million in FY
2004.


CIRCULATING COINAGE SHIPPED TO FEDERAL RESERVE BANKS
The United States Mint produces the circulating coins used to conduct commercial transactions across the nation.
Coins are shipped to the Federal Reserve Bank (FRB) as they are needed to replenish inventory and fulfill
commercial demand. The FRB reimburses the United States Mint at face value for the coins when they are shipped.

Total circulating earned revenue from coins shipped to the FRB of
$445.4 million plus other financing sources (seigniorage) of $699.4                       Circulating Revenue & Other
million increased to $1,144.8 million in FY 2005 from $395.8                                   Financing
                                                                                                Circulating Sources
                                                                                                            Collections
million earned revenue plus $597.7million for other financing
                                                                                                                        $1,14 4 .8
sources (seigniorage) for a total of $993.5 million in FY 2004. The                                  $1,144.8
                                                                                               $ 1,200
                                                                                                          $9 9 3 .5   $993.5
increase in total earned revenue and other financing sources                            $1,200 $ 1,000




                                                                         ($ Millions)
                                                                                              $ 800
(seigniorage) reflects the increased volume of shipments to the                         $1,000$ 600
FRB. The Westward Journey Nickel Series™, featured two designs                           $800$ 400
in FY 2005 commemorating the Louisiana Purchase and the Lewis                            $600$ 200
and Clark Expedition. The obverse design features a contemporary                         $400 $ 0           FY2004      FY2005
image of President Jefferson, along with two new reverse designs -                       $200
the “American Bison” and the “Ocean in View.” Nickel collections                            $0
increased to $70.9 million in FY 2005 from $69.6 million in FY                                           FY2005       FY2004
2004. Quarter collections increased to $663.9 million in FY 2005
from $560.4 million in FY 2004. In FY 2005, the United States
Mint issued quarters commemorating Wisconsin, California,                               Circulating Other Financing
Minnesota, Oregon and Kansas.                                                                     Sources

Other financing sources from circulating coinage increased to                                            $699.4
                                                                                        $800
$699.4 million in FY 2005 from $597.7 million in FY 2004. The                           $700
                                                                      ($ Millions)




                                                                                                                       $597.7
average market price of nickel, copper and zinc increased 13                            $600
                                                                                        $500
percent, 30 percent and 25 percent, respectively, over prior year                       $400
prices. SG&A costs as a percentage of Circulating earned revenue                        $300
and other financing sources decreased to 7.5 percent compared to                        $200
8.9 percent in the prior year. The following tables show the COGS,                      $100
                                                                                          $0
SG&A and Distribution costs on a per unit basis for each
                                                                                                         FY2005       FY2004
denomination.




                                                        13
CIRCULATING REVENUE & OTHER FINANCING SOURCES (OFS) (in Millions)
FOR THE YEAR ENDED SEPTEMBER 30, 2005

                                                                                                    Mutilated &
                                     Penny      Nickel    Dime    Quarter        Half      Dollar         Other      Total
Revenue & OFS                         $72.2      $70.9   $266.9    $663.9        $0.8      $70.1           $0.0   $1,144.8
Cost of Goods Sold                     69.9       68.3     59.3     133.9         0.2        4.6            0.0      336.2
Selling, General & Administrative       0.3        0.2     22.0      56.4         0.1        6.9            0.0       85.9
Other Costs and Expenses                0.0        0.0      2.5       6.4         0.0        0.8           13.6       23.3
Other Financing Sources                $2.0       $2.4   $183.1    $467.2        $0.5      $57.8         -$13.6    $699.4
Net Profit Margin                     2.8%       3.4%    68.6%     70.4%       62.5%       82.5%                    61.1%


CIRCULATING REVENUE & OTHER FINANCING SOURCES (in Millions)
FOR THE YEAR ENDED SEPTEMBER 30, 2004

                                                                                                    Mutilated &
                                     Penny      Nickel    Dime    Quarter        Half      Dollar         Other     Total
Revenue & OFS                         $71.3      $69.6   $256.9    $560.4        $3.5      $31.8           $0.0    $993.5
Cost of Goods Sold                     65.7       62.7     55.1     106.9         0.8        3.2            0.0     294.4
Selling, General & Administrative       1.0        0.8     25.6      57.6         0.4        3.5            0.0      88.9
Other Costs and Expenses                0.0        0.0      0.0       0.0         0.0        0.0           12.5      12.5
Other Financing Sources                $4.6       $6.1   $176.2    $395.9        $2.3      $25.1         -$12.5    $597.7
Net Profit Margin                     6.5%       8.8%    68.6%     70.6%       65.7%       78.9%                    60.2%




Circulating Unit Costs

UNIT COST OF PRODUCING AND DISTRIBUTING COINS
FOR THE YEAR ENDED SEPTEMBER 30, 2005

                                      Penny           Nickel        Dime           Quarter              Half       Dollar
  Cost of Goods Sold                 $0.0095         $0.0478      $0.0219          $0.0491          $0.1091       $0.0655
  General & Administrative           $0.0000         $0.0002      $0.0083          $0.0212          $0.0429       $0.0992
  Distribution to FRB                $0.0002         $0.0004      $0.0003          $0.0014          $0.0019       $0.0007
  Total Cost Per Unit                $0.0097         $0.0484      $0.0305          $0.0717          $0.1539       $0.1654



UNIT COST OF PRODUCING AND DISTRIBUTING COINS
FOR THE YEAR ENDED SEPTEMBER 30, 2004

                                      Penny           Nickel        Dime           Quarter              Half       Dollar
  Cost of Goods Sold                 $0.0090         $0.0446      $0.0212          $0.0466          $0.1101       $0.0984
  General & Administrative           $0.0001         $0.0006      $0.0100          $0.0257          $0.0569       $0.1114
  Distribution to FRB                $0.0002         $0.0004      $0.0002          $0.0010          $0.0027       $0.0016
  Total Cost Per Unit                $0.0093         $0.0456      $0.0314          $0.0733          $0.1697       $0.2114



Supplemental Information per Public Law 107-201
Public Law 107-201 (July 23, 2002) authorized the United States Mint to purchase silver on the open market to mint
coins when the Strategic Stockpile of silver was depleted. The law requires an annual reporting of the amount of
silver purchased on the open market by fiscal year. The following are purchases for FY 2005 and FY 2004:

                              Quantity (FTO)                                Market Value
FY 2005                       15,462,284.6495                               $ 110,164,958.01
FY 2004                       12,968,078.1850                               $ 81,939,233.25




                                                           14
NUMISMATIC SALES TO THE PUBLIC
Total numismatic sales (less surcharges and commissions) to the public decreased to $588.2 million in FY 2005
from $594.8 million in FY 2004. Bullion sales decreased to $270.7 million in FY 2005 from $315.7 million in FY
2004. Non-bullion sales to the public increased to $317.5 million in FY 2005 from $279.1 million in FY 2004. Total
numismatic profit margin increased to 13.4 percent in FY 2005 from 7.4 percent in FY 2004. Although numismatic
sales decreased compared to the prior year, the United States Mint was able to increase profits by improving time to
market and reducing Cost of Good Sold (COGS).



                    Numismatic Revenue                                             Numismatic Net Profit

                  $700.0
                           $588.2    $594.8
                  $600.0                                                        $100.0
                                                                                         $78.7
                  $500.0




                                                                 ($ Millions)
                                                                                 $80.0
   ($ Millions)




                  $400.0                                                         $60.0                $44.1
                  $300.0                                                         $40.0
                  $200.0                                                         $20.0
                  $100.0
                                                                                  $0.0
                    $0.0
                                                                                         FY 2005     FY 2004
                           FY 2005   FY 2004




NUMISMATIC NET PROFIT (in Millions)
FOR THE YEAR ENDED SEPTEMBER 30, 2005


                                          American Eagle American
                                           Uncirculated Eagle Proof Commemoratives                 Recurring    Total
Revenue (less surcharges & commissions)            $270.7     $93.2           $20.8                   $203.5   $588.2
Cost of Goods Sold                                  264.3      62.4            13.1                     92.8    432.6
Selling, General & Administrative                     0.8      13.8             4.9                     56.3     75.8
Other Cost                                            0.1       0.2             0.0                      0.8      1.1
Net Profit                                           $5.5     $16.8            $2.8                    $53.6    $78.7

Net Profit Margins                                 2.0%        18.0%                      13.5%       26.3%    13.4%



NUMISMATIC NET PROFIT (in Millions)
FOR THE YEAR ENDED SEPTEMBER 30, 2004


                                          American Eagle American
                                           Uncirculated Eagle Proof Commemoratives                 Recurring    Total
Revenue (less surcharges & commissions)            $315.7     $75.2           $33.2                   $170.7   $594.8
Cost of Goods Sold                                  312.5      48.0            18.5                    105.2    484.2
Selling, General & Administrative                     0.6      13.8             8.2                     43.9     66.5
Net Profit                                           $2.6     $13.4            $6.5                    $21.6    $44.1

Net Profit Margins                                 0.8%        17.8%                      19.6%       12.7%     7.4%




                                                          15
American Eagle Uncirculated (Bullion) Coins
American Eagle Uncirculated (Bullion) coins are typically purchased                              American Eagle Uncirculated
by investors seeking a simple, tangible means to own and invest in                                  Revenue & Net Profit
precious metals. Bullion sales decreased to $270.7 million in FY                                                          $315.7
2005 from $315.7 million in FY 2004.                                                             $350.0
                                                                                                 $300.0       $270.7




                                                                          ($ Millions)
                                                                                                 $250.0
                                                                                                 $200.0
                                                                                                 $150.0
                                                                                                 $100.0
                                                                                                            $5.5        $2.6
                                                                                                  $50.0
                                                                                                   $0.0
                                                                                                             FY 2005     FY 2004
American Eagle Proof Coins                                                                                Revenue      Profit


American Eagle Proof revenue increased to $93.2 million in FY 2005
                                                                                                     American Eagle Proof
from $75.2 million in FY 2004 due to increased unit sales and time to
market improvements. American Eagle Proof profits increased to                                       Revenue & Net Profit
$16.8 million in FY 2005 from $13.4 million in FY 2004 and profit                                              $93.2
                                                                                                 $100.0
margins increased to 18.0 percent from 17.8 percent in the prior year.                                                      $75.2




                                                                               ($ Millions)
                                                                                                  $80.0
                                                                                                  $60.0
                                                                                                  $40.0
                                                                                                           $16.8       $13.4
                                                                                                  $20.0
                                                                                                   $0.0
                                                                                                             FY 2005      FY 2004
                                                                                                          Revenue      Profit
Commemorative Coins
Commemorative revenue (less surcharges and commissions)                                          Commemoratives Revenue &
decreased to $20.8 million in FY 2005 from $33.2 million in FY                                          Net Profit
2004. The Lewis and Clark and the Thomas A. Edison                                                                         $33.2
Commemorative Coins were released in FY 2004, as authorized by                                   $35.0
                                                                                                 $30.0
Congress. These two issuances totaled $8.8 million in revenues for
                                                                                  ($ Millions)




                                                                                                 $25.0       $20.8
FY 2005 and generated $1.5 million in surcharges and commissions                                 $20.0
for the beneficiary organizations designated by the authorizing                                  $15.0
                                                                                                 $10.0                 $6.5
legislation. Congress authorized the issuance of the Chief Justice John                           $5.0     $2.8
Marshal Silver Dollar and the 2005 Marine Corps 230th Anniversary                                 $0.0
Silver Dollar commemorative coins, which were released in March                                             FY 2005      FY 2004
2005 and July 2005, respectively. Revenue from these two issuances                                        Revenue      Profit
totaled $17.7 million and generated $4.2 million in surcharges and
commissions for the beneficiary organizations designated by
authorizing legislation.


Recurring Programs
Recurring programs include proof sets, silver proof sets, uncirculated                        Recurring Programs Revenue
sets, 50 State Quarters® Proof Sets, 50 State Quarters Silver Proof
                                                                                                      & Net Profit
Sets™, and other miscellaneous products. Revenue from recurring
                                                                                                 $240.0
programs increased to $203.5 million in FY 2005 from $170.7 million                                          $203.5
                                                                                                 $200.0                  $170.7
in FY 2004. 2005 Nickels added $15.2 million to FY 2005 recurring
                                                                               ($ Millions)




                                                                                                 $160.0
revenue, an increase from $4.2 million in FY 2004. The strong
                                                                                                 $120.0
performance of recurring products was due to time to market                                                $53.6
                                                                                                  $80.0
improvements. As a result of the United States Mint focusing on                                                        $21.6
                                                                                                  $40.0
production planning and reducing time to market, all of the 2005
                                                                                                   $0.0
annual products were released one and one half to five and one half
                                                                                                             FY 2005    FY 2004
months earlier than the 2004 versions. Recurring profit margins
increased to 26.3 percent in FY 2005 from 12.7 percent in FY 2004, a                                      Revenue       Profit
result of reducing COGS and improving time to market.


                                                         16
NUMISMATIC SALES OF CIRCULATING COINAGE
With the introduction of the 50 States Quarters® Program, the
Golden Dollar and the nickel redesigns, there has been an                                    Numismatic Sales of Circulating
increase in collector demand for circulating quality coins that
have not yet been circulated. These coins are typically sold by
                                                                                           Coinage Revenue & Other Financing
the United States Mint in bags and rolls. Sales in this category                                       Sources
represent the face value of the coins sold. All additional revenue                      $70.0
above the face value and any additional expenses incurred in                                                                    $62.1
selling these products are included in the Numismatic Recurring                         $60.0
Programs in the previous section.                                                       $50.0                           $46.4




                                                                     ($ M illio n s )
                                                                                                         $37.9
Total numismatic earned revenue from the sale of circulating                            $40.0
coinage of $14.6 million plus other financing sources                                   $30.0
(seigniorage) of $23.3 million decreased to $37.9 million in FY                                  $23.3
2005 from $15.7 million in earned revenue plus $46.4 million in                         $20.0
other financing sources for a total of $62.1 million in FY 2004.
                                                                                        $10.0
FY 2004 sales reflected an anomalous sale of 78 million back-
dated quarters to a predominant buyer. FY 2005 sales are more                            $0.0
consistent with the numismatic circulating sales plan. The other
                                                                                                    FY 2005               FY 2004
financing sources of numismatic sales of circulating coinage
decreased to $23.3 million in FY 2005 from $46.4 million in FY                                  Revenue & Other Financing Sources
2004. As in the case of circulating coins sold to the FRB, the
                                                                                                Other Financing Sources
portion of the other financing sources transferred to the Treasury
General Fund are off-budget receipts.


PROTECTION OPERATIONS
The Office of Protection maintains a highly professional police force with the tools and resources needed to respond
to changing threats of today’s environment. The United States Mint Police is committed to recruiting and retaining
the highest caliber of law enforcement personnel and has been very competitive in its compensation.

The United States Mint Police secure approximately $117.5 billion in market value of the nation’s gold and silver
reserves and protect the United States Mint’s assets while safeguarding thousands of employees against potential
threats at our facilities across the country. In FY 2005, the Protection program had a net cost of $37.4 million, a
decrease from a net cost of $38.0 million in FY 2004.

In FY 2005, the United States Mint’s Protection Program received a 93 percent Program Assessment Rating Tool
(PART) score. The PART is a program self assessment that the Office of Management and Budget (OMB) requires
of every Federal program. PART measures how effective the agency is in the program’s purpose and design,
strategic planning, program management and program results/accountability and holds programs to high standards.
This is evidence that the United States Mint’s Protection Program is well managed and achieving its purpose.


CAPITAL INVESTMENTS
Each year, the United States Mint commits funds for capital projects to maintain, upgrade or acquire physical
structures, equipment, physical security and information technology systems. Funds obligated for capital projects
totaled approximately $18.1 million in FY 2005. This included approximately $8.9 million for manufacturing
projects, $3.7 million for security improvement projects, $4.1 million for information technology and $1.4 million
for miscellaneous projects. The United States Mint’s capital projects are focused on improving processes,
developing new coin design capabilities and expanding information handling. These investments are planned to
reduce costs, shorten the overall time from product concept to production and achieve greater flexibility to respond
to market demands.




                                                         17
TRANSFERS TO THE TREASURY GENERAL FUND
The Public Enterprise Fund (PEF) legislation
permits the United States Mint to operate in a
business-like manner allowing the United                               Transfers to the Treasury General Fund
States Mint flexibility to adjust spending to
adapt to ever changing economic and business
conditions. As required by Public Law 104-52,                        $2,500
the United States Mint transfers all profits to
the Treasury General Fund, retaining only the
amount required by the PEF to support United                         $2,000
States Mint operations and programs.




                                                     $ M illio n s
                                                                     $1,500
In FY 2005, the United States Mint transferred
$775 million to the Treasury General Fund.
This total consisted of $730 million from the             $1,000
net operating results from the sale of
circulating coins either to the FRB or through              $500
numismatic channels (off-budget) and $45
million from profits on numismatic collectible
and investment sales (on-budget). In                        $-
comparison, $665 million ($661 million off-
                                                                    96 97 98 99 00 01 02 03 04 05
budget and $4 million on-budget) was                              19 19 19 19 20 20 20 20 20 20
transferred to the Treasury General Fund in FY
2004. The amounts transferred to Treasury are
directly related to the sales of United States Mint products. Stronger circulating collections in FY 2005 plus the
numismatic profits on circulating-based coin products provided a greater source for off-budget transfers to the
General Fund relative to FY 2004. The $45 million on-budget transfer occurred in the first quarter of FY 2005 and
reflects the numismatic profit for FY 2004. This lag in the transfer of on-budget funds is necessary to ensure that the
proper amount is transferred each year. Accordingly, the on-budget transfer in the first quarter in FY 2006 will
reflect the profits from the sale of numismatic products in FY 2005.




                                                                     18
PERFORMANCE SECTION
One of the most effective means of determining how well an organization is performing is through the use of
performance measures. As prescribed by the Government Performance & Results Act (GPRA) of 1993, agencies are
to identify critical activities, devise pertinent performance measures and report on these activities to the President
and Congress.

The United States Mint’s strategic plan focuses on adding value, ensuring integrity and realizing world-class
performance. To direct our efforts, the United States Mint identified key performance measures that cut across the
entire organization. Tied to these performance measures are world-class targets and substantive initiatives to reach
our goals. These measures are presented as bureau-wide strategic performance measures, which establish a single,
critical set of measures to manage our operations effectively. In addition to being the critical measures used by
management, many of these key measures can be broken out at the program level.




                                                         19
UNITED STATES MINT KEY PERFORMANCE MEASURES



        Measure                September 30, 2005               FY 2005 Target   September 30, 2004

Lost Time Accident
                                          0.94                          1.03            1.36
Rate

Pulse Check Survey *                      64%                          66%             63% *


Cycle-Time                                 69                            53             85


Yield                                    85.9%                         97%             86.1%


Machine availability                      64%                          66%              64%


Inventory Turnover                        2.35                          4.20            2.48

SG&A as a percent of
                                          9.9%                        10.0%            12.2%
Revenue & OFS

Cost per 1000 coin
                                         $7.42                         $7.03           $7.93
equivalents

Customer Service
                                          91%                          92%              78%
Index

Total Losses                             $1,135                     $250,000           $3,109

Protection Cost per
                                         $32.43                       $31.86           $32.51
Square Foot

Order Fulfillment                         94%                           NA              N/A


* The FY 2004 percentage in the Annual Report is based on 3rd quarter numbers.




                                                          20
Lost Time Accident Rate
The United States Mint values its employees. Consistent with those
values, the United States Mint strives to maintain a work                         Lost Time Accident Rate
environment that promotes the safety and well-being of employees
                                                                                                               1.36
on the job at all times. Lost Time Accidents (LTAs) are work-            1.50
related accidents that lead to an employee missing at least one day      1.25
of work. The Lost Time Accident Rate is the number of LTAs for                           0.94
                                                                         1.00
every 200,000 hours worked (or the LTAs per 100 employees
during a full year). The LTA Rate in FY 2005 was 0.94, a 31              0.75
percent improvement from 1.36 in FY 2004. The performance was            0.50
better than the target rate of 1.03. The FY 2005 final result may be     0.25
adjusted at a later date pending a review or dispute of each             0.00
incident’s present classification. The LTA rate has decreased four                       2005                  2004
years in a row and improvements are expected to continue. Safety
at the workplace has been and will continue to be a focus for the
United States Mint.


Employee Satisfaction
The United States Mint values its employees and strives to be an
employer of choice, where employees are motivated and                                               Pulse Check Survey
enthusiastic about coming to work. The Pulse-Check Survey is a                        Pulse Check Survey *
                                                                                                                    65%
14-question survey designed to assess the attitudes of the United                       70%          60%
                                                                                        60%
States Mint’s employees concerning their work environment. It is                         64%
                                                                                        50%                   63%
administered each quarter to 25 percent of the United States Mint’s       70%           40%
                                                                                        30%
permanent workforce. This measure captures the percentage of              60%           20%
                                                                                        10%
employees who are generally satisfied with their jobs. In FY 2005,
                                                                          50%            0%
64 percent of survey respondents reported favorable job                                              2003          2004
satisfaction, compared to a 63 percent satisfaction rate in FY 2004.      40%
The Pulse Check Survey is below the FY 2005 target of 66 percent.         30%
For comparison, the United States Mint result is not significantly
different than an industry normative benchmark of 65 percent              20%
(based on 2002 data from 1,068 full-time US employees in                  10%
manufacturing organizations with less than 10,000 employees).              0%
While individual responses are kept confidential, reports are
created that allow analysis across broad categories for more detail.                     2005                 2004
The United States Mint’s management team reviews these quarterly
reports to explore options for workplace improvements in order to
improve the job satisfaction levels.


Cycle Time
The United States Mint wants to minimize the amount of time it
takes to process raw materials into finished goods, eliminating non-                          Cycle-Time
value added steps from the processes and reducing the amount of                 100
raw material in inventory. The cycle time measure assesses the time                                              85
it takes material to flow through the United States Mint's processes            80             69
from raw material to order fulfillment. As of September 2005, the
                                                                       (Days)




                                                                                60
United States Mint’s cycle time was 69 days, an improvement of 16
days from 85 days as of September 2004. The targeted cycle time                 40
was 53 days. The primary cause for not reaching the target is the               20
size of the dollar coin inventory maintained by the United States
Mint. No new production of dollar coins is taking place; demand is               0
currently being met by existing inventory. Measured without the                               2005              2004
dollar coin, Cycle Time improved to 48 days in FY 2005, compared
with 55 days in FY 2004.

The United States Mint plans to continue improving the cycle time of the circulating coinage through further
implementation of lean manufacturing techniques. The United States Mint is currently working with the Federal

                                                         21
Reserve Banks, the armored carrier industry and the commercial banking industry to reduce and balance coin
inventories. Initiatives include improving circulating coin inventory management by implementing a coin supply
chain pilot with the Cleveland Federal Reserve district and taking a broad look at opportunities to reengineer the
manufacturing process and inventory handling.


Yield
The United States Mint wants to minimize wasted material and
transform as much of our materials into finished goods as is feasible.                      Yield
Yield measures the percentage of raw materials used that results in a
                                                                          90.0%
finished product. FY 2005 Yield was 85.9 percent which is slightly                       85.9%          86.1%
lower than the previous year of 86.1 percent. Performance is short of     85.0%
the target of 97 percent, a stretch goal designed to encourage broad
thinking and suggestions for improvement from all personnel. The          80.0%
main impediment to reaching the target is that the target does not
                                                                          75.0%
include an allowance for the webbing that results from stamping
round blanks from rectangular sheets of metal. The resulting scrap        70.0%
that is generated lowers the yield measure by 10-15 percentage
points, depending on the mix of products that are produced. The           65.0%
United States Mint makes every effort to maximize the yield given                        2005           2004
our current processes. Substantial improvement will require
innovative solutions.


Machine Availability
Machine availability measures the amount of time production
equipment is available to produce finished goods (excluding                       MachineMachine
                                                                                           Availability
                                                                                                 Availability
                                                                                                          64%
scheduled downtime). We want our machines 'at-the-ready' at all                   70%
                                                                                     64%    56%       64%
                                                                         70%      60%
times to manufacture coins as warranted by the prevalent demand.                  50%
As of September 2005, the United States Mint’s Machine                   60%
                                                                                  40%
                                                                         50%
Availability is 64 percent. This is level with FY 2004 performance,               30%
                                                                         40%      20%
but falls short of the FY 2005 target of 66 percent. Newer
                                                                         30%      10%
equipment, improved technology to schedule and monitor                             0%
                                                                         20%
maintenance and improved production management are enabling              10%                2003          2004
the United States Mint to have machines more available for                0%
production. The United States Mint plans to continue improving the
                                                                                     2005            2004
machine availability through further implementation of lean
manufacturing techniques.


Inventory Turnover
The United States Mint seeks to minimize inventory of raw
materials and finished goods to reduce the associated carrying                    Inventory Turnover
                                                                                         Inventory Turnover

costs. Inventory turnover is a measure of how often, during the          3.00     3.00
                                                                                                          2.48
                                                                                  2.50               2.48
course of a year, the United States Mint sells and replaces inventory    2.50       2.35    1.96
                                                                                  2.00
of materials and final products. Inventory turnover is calculated as
                                                                         2.00     1.50
the total cost of goods sold divided by the average inventory level               1.00
over a given period. The Inventory Turnover ratio decreased to 2.35      1.50
                                                                                  0.50
times in FY 2005 from 2.48 in FY 2004. While the Cost of Goods           1.00     0.00
Sold remained level in FY 2005 compared with FY 2004, the                0.50               2003          2004
average inventory increased during FY 2005 to $330.7 million from
                                                                         0.00
$317.3 million in FY 2004. The performance measure did not meet
                                                                                    2005             2004
the target of 4.2 times.




                                                         22
SG&A as a Percent of Revenue & OFS (Excluding Bullion Revenue)
Sales, General and Administrative (SG&A) costs are the overhead,
marketing and advertising costs of running the United States Mint.            SG&A as a % of Revenue &
In a production oriented, non-service intensive type business like              Other Financing Sources
the United States Mint, the focus is on minimizing SG&A costs
where practicable to improve profitability. In the case of the United     14.0%
                                                                                                    12.2%
States Mint, improving margins means that more funds will be              12.0%
                                                                                       9.9%
returned to the Treasury General Fund as a result of operations. The      10.0%
reduction of SG&A expenses was a priority in FY 2005 and will              8.0%
continue to be in the future. SG&A as a percent of non-bullion
revenue and other financing sources improved to 9.9 percent in FY          6.0%
2005 from 12.2 percent in FY 2004. This performance measure                4.0%
excludes rental income from subleased office space of $6.5 million         2.0%
and rental expenses because they are offsetting. The measure also
excludes a one-time $9.0 million charge from a legal settlement            0.0%
This settlement was an anomalous expense resulting from previous                       2005         2004
years’ activities that was incurred by Headquarters on behalf of a
field facility. Performance exceeded the FY 2005 target of 10.0 percent, and the United States Mint will continue to
make reductions in general and administrative costs a priority in order to approach a benchmark of 7.7 percent.


Conversion Cost per 1000 Coin Equivalents
The United States Mint’s costs vary by product, and the product
mix has been variable over time. This makes it difficult to compare             Cost Per 1000 CEs
operating results from year to year. The coin equivalent calculation
converts the production output to a common denominator based on        $10.00
                                                                                   $7.42         $7.93
the circulating quarter. Production costs, excluding metal and          $8.00
fabrication, are then divided by this standardized production level,
                                                                        $6.00
thus resulting in “conversion costs per 1000 coin equivalents.”
This allows comparison of performance over time by negating the         $4.00
effects of changes in the product mix. The conversion cost per
                                                                        $2.00
1,000 coin equivalents during FY 2005 was $7.42, an improvement
of 6.4 percent from $7.93 in FY 2004. The performance measure           $0.00
did not meet the target of $7.03. This target (stretch goal) was an 11              2005          2004
percent drop from the FY 2004 actual results and was set based on
forecasted volume and cost estimates. Differences in the actual
volume from the forecast may impact the achievement of specific targets in any given year. Coin equivalent
production increased to 19.9 billion in FY 2005 compared with 17.8 billion in FY 2004 (12 percent). The associated
conversion cost increased at a lesser rate (4 percent) to $147 million from $141 million in FY 2004 due to cost
cutting and improved processes. The United States Mint plans to continue to reduce conversion costs for given
production volumes through further implementation of lean manufacturing techniques at the manufacturing
facilities.


Customer Service Index
The Customer Service Index is an indicator of the quality of our                  Customer Service Index
products and services to the customer. Production of quality products
and excellent customer service is paramount. The Customer Service          100%
Index contains two components: the order satisfaction rate (total                     91%
                                                                           90%
orders less returns) and the percentage of orders fulfilled within seven                           78%
days. The overall Customer Service Index increased by 13 percentage        80%
points (a 16.7 percent increase) to 91 percent in FY 2005 from 78          70%
percent in FY 2004. The performance did not quite meet the target for
FY 2005, which was 92 percent.                                             60%
                                                                           50%
                                                                                     2005           2004




                                                          23
Total Losses
The United States Mint performs its protection function by minimizing the vulnerability to theft and preventing
unauthorized access to critical assets. Total Losses measures the dollar amount of losses incurred due to the
realization of threats against the United States Mint. Total Losses measures losses within three categories
representing cases that have been investigated and closed:
                                                                                Total Losses
1. Financial Losses: intentional monetary losses, thefts or fraud
     from metal reserves, produced coinage, retail sales and other
                                                                                              $3,109
     administrative losses.                                          $3,500
2. Cost of Intrusions: the cost of repair or recovery from an        $3,000
     intentional intrusion into United States Mint systems and       $2,500
     facilities either electronically or physically.                 $2,000
3. Productivity Losses: the cost of intentional damage or            $1,500    $1,135
     destruction to production capabilities, including related costs
                                                                     $1,000
     for continuity of operations.
                                                                        $500
                                                                          $0
Total Losses in FY 2005 were $1,135 compared with $3,109 in FY
2004. This performance beat the target of $250,000. The United                   2005           2004
States Mint also keeps track of exposure, or the dollar amount of
open cases. As of September 2005, the exposure is $276,295. The United States Mint has revised its future targets to
be more in line with the recent performance.


Protection Cost per Square Foot
Protection cost per square foot shows the Office of Protection’s total operating cost divided by the area of usable
space. Usable space is defined as 90 percent of total square footage. The United States Mint Police use the cost per
square foot to provide a measurement of efficiency over time. The
square footage of usable area at the United States Mint is a stable          Protection Cost per Square
figure and will only change significantly with major events such as                        Foot
the addition or removal of a facility. Protection cost per square foot in
                                                                             $33.00
FY 2005 was $32.43, a slight improvement from $32.51 in FY 2004.                        $32.43       $32.51
FY 2005 performance is 2 percent higher than the targeted $31.86.            $32.50
Protection expenses are highly labor intensive, which results in             $32.00
continual upward pressure on costs. The Protection function requires         $31.50
that adequate staffing and coverage must be maintained at all times.
                                                                             $31.00
The ability to apply downward pressure on cost must be tempered by
level of readiness necessary to fulfill the protection mission.              $30.50
                                                                             $30.00
The United States Mint Protection office is analyzing future                         2005         2004
personnel needs and budgetary requirements in order to look for ways
to keep costs manageable while maintaining adequate protection of assets and employees. Plans include efforts to
leverage new technology to enhance security by automating entry and exit procedures at United States Mint
facilities.


Order Fulfillment                                                                 Order Fulfillment
Order Fulfillment is a new measure that tracks the overall order                      94%
fulfillment for the circulating coins shipped to the Federal Reserve     100%
and the numismatic coins sold to the public. Both components are          80%
then weighted by their respective share of the total revenues and
other financing sources. The Order Fulfillment was 94 percent in          60%
FY 2005. Essentially, this means that 94 percent of the United            40%
States Mint’s revenue and other financing sources was earned from
                                                                          20%
products that were shipped to the customer in a timely fashion. This
is a new performance measure and will continue to be tracked for           0%
appropriateness and for setting future targets.                                       2005        2004




                                                         24
LIMITATIONS OF THE FINANCIAL STATEMENTS
The principal financial statements have been prepared to report the financial position and results of operations of the
United States Mint, pursuant to the requirements of 31USC3515(b). While the statements have been prepared from
the books and records of the United States Mint in accordance with U.S. generally accepted accounting principles
(GAAP) for Federal entities and the formats prescribed by OMB, the statements are in addition to the financial
reports used to monitor and control budgetary resources which are prepared from the same books and records. The
statements should be read with the realization that they are for a component of the U.S. Government, a sovereign
entity.




                                                          25
THIS PAGE INTENTIONALLY LEFT BLANK
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                          Independent Auditors’ Report on Financial Statements


Inspector General
United States Department of the Treasury:

Director
The United States Mint:

We have audited the accompanying balance sheet of the United States Mint (Mint) as of
September 30,2005 and the related statements of net cost, changes in net position, financing, and custodial
activity, and the combined statement of budgetary resources, for the year then ended. These financial
statements are the responsibility of the Mint’s management. Our responsibility is to express an opinion on
these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 01-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 01-02 require that we plan and perform the audits to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes consideration of internal control
over financial reporting as a basis for designing audit procedures that are appropriate in the circumstances,
but not for the purpose of expressing an opinion on the effectiveness of the Mint’s internal control over
financial reporting. Accordingly, we express no such opinion. An audit also includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements. An audit also includes
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audit provides a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the United States Mint as of September 30, 2005, and its net cost, change in net
position, budgetary resources, reconciliation of net cost to budgetary obligations, and custodial activity, for
the year then ended, in conformity with accounting principles generally accepted in the United States of
America.

As discussed in Note 1 to the financial statements, the Mint changed its method of preparing its financial
statements to be in accordance with the accounting standards issued by the Federal Accounting Standards
Advisory Board in fiscal year 2005. Prior to fiscal year 2005, the Mint presented its financial statements in
accordance with the accounting standards issued by the Financial Accounting Standards Board. As a result
of the lack of comparability, the fiscal year 2004 financial statements have not been presented with the
fiscal year 2005 financial statements.

                                                                      26
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
The information in the Management Discussion and Analysis section is not a required part of the financial
statements, but is supplementary information required by accounting principles generally accepted in the United
States of America or OMB Circular No. A-136, Financial Reporting Requirements, Part A, Form and Content of
the Performance and Accountability Report. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and presentation of this
information. However, we did not audit this information and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued reports dated June 16, 2006, on our
consideration of the Mint’s internal control over financial reporting and our tests of its compliance with certain
provisions of laws, regulations, contracts, and other matters. The purpose of those reports is to describe the scope
of our testing of internal control over financial reporting and compliance and the results of that testing, and not to
provide an opinion on the internal control over financial reporting or on compliance. Those reports are an integral
part of an audit performed in accordance with Government Auditing Standards and should be read in conjunction
with this report in assessing the results of our audit.




June 16, 2006, except as to note 19, which is dated November 3, 2006.




                                                         27
                         DEPARTMENT OF THE TREASURY
                              UNITED STATES MINT
                                BALANCE SHEET
                            AS OF SEPTEMBER 30, 2005
                                        (In Thousands)


ASSETS
    Intragovernmental:
        Fund Balance with Treasury (Note 3)                                    $279,387
        Accounts Receivable (Note 4)                                                 58
        Advances and Prepayments (Note 5)                                         4,114
    Total Intragovernmental Assets                                              283,559

        Custodial Gold and Silver Reserves (Note 6)                           10,493,740
        Accounts Receivable, Net (Note 4)                                         14,900
        Inventory and Related Property (Note 7)                                  185,630
        Supplies                                                                  13,193
        Property, Plant and Equipment, Net (Note 8)                              271,581
        Advances and Prepayments (Note 5)                                          1,612
     Total Non-Intragovernmental Assets                                       10,980,656

Total Assets                                                                 $11,264,215

LIABILITIES
    Intragovernmental:
        Accounts Payable                                                           $313
        Accrued Workers' Compensation                                              6,805
    Total Intra-governmental Liabilities                                           7,118


        Custodial Liability to Treasury                                       10,493,740
        Accounts Payable                                                          40,513
        Surcharges payable (Note 3)                                               10,678
        Accrued Payroll and Benefits                                              14,996
        Other Actuarial Liabilities                                               33,855
        Unearned Revenues                                                          5,791
     Total Non-Intragovernmental Liabilities                                   10,599,573

Total Liabilities                                                             10,606,691

         Commitments and Contingencies (Note 11 & 12)

NET POSITION

     Cumulative Results of Operations                                            657,524


Total Liabilities and Net Position                                           $11,264,215




The accompanying notes are an integral part of these financial statements.

                                               28
                             DEPARTMENT OF THE TREASURY
                                  UNITED STATES MINT
                                STATEMENT OF NET COST
                         FOR THE YEAR ENDED SEPTEMBER 30, 2005
                                             (In Thousands)




NUMISMATIC PRODUCTION AND SALES

     Gross Cost                                                              $524,072
     Less Earned Revenue                                                     (602,796)

Net Program Revenue                                                           (78,724)

CIRCULATING PRODUCTION AND SALES

     Gross Cost                                                               445,446
     Less Earned Revenues (Note 14)                                          (445,446)

Net Program Revenue                                                                 -

Net Revenue Before Protection of Assets                                       (78,724)

PROTECTION OF ASSETS

     Protection Costs                                                          37,543
     Less Earned Revenue                                                         (107)

Net Cost of Protection of Assets                                               37,436


Net Revenue from Operations                                                  ($41,288)




The accompanying notes are an integral part of these financial statements.


                                                   29
                   DEPARTMENT OF THE TREASURY
                        UNITED STATES MINT
               STATEMENT OF CHANGES IN NET POSITION
               FOR THE YEAR ENDED SEPTEMBER 30, 2005
                                     (In Thousands)



CUMULATIVE RESULTS OF OPERATIONS

NET POSITION, Beginning of Year                                              $657,797

FINANCING SOURCES:

   Transfers to the Treasury General Fund On-Budget                           (45,000)
   Transfers to the Treasury General Fund Off-Budget                         (730,000)
   Other Financing Sources (Seigniorage) (Note 14)                            722,686
   Imputed Financing Sources (Note 10)                                         10,753
Total Financing Sources                                                       (41,561)

Net Revenue from Operations                                                    41,288

Net Position, End of Year                                                    $657,524




The accompanying notes are an integral part of these financial statements.


                                           30
                       DEPARTMENT OF THE TREASURY
                            UNITED STATES MINT
                   STATEMENT OF BUDGETARY RESOURCES
                   FOR THE YEAR ENDED SEPTEMBER 30, 2005
                                         (In Thousands)

Budgetary Resources

Unobligated Balance:
  Beginning of the Period                                                     $130,290

Spending Authority from Offsetting Collections:
  Earned:
     Collected                                                                1,091,486
     Receivable from Federal Sources                                             (4,363)
  Subtotal                                                                    1,087,123




Permanently Not Available                                                       (45,000)

     TOTAL BUDGETARY RESOURCES                                               $1,172,413

Status of Budgetary Resources
Obligations Incurred:
   Reimbursable (Note 16)                                                    $1,048,090

Unobligated Balances:
  Apportioned                                                                  124,323

     TOTAL STATUS OF BUDGETARY RESOURCES                                     $1,172,413

Relationship of Obligations to Outlays
Obligated Balance, Net, Beginning of Period                                   $198,891

Obligated Balance, Net, End of Period:
  Accounts Receivable                                                              (58)
  Undelivered Orders                                                            47,898
  Total Liabilities                                                            112,951

Outlays:
  Disbursements                                                               1,089,647
  Collections (Note 19)                                                      (1,091,486)

     NET OUTLAYS                                                                ($1,839)




The accompanying notes are an integral part of these financial statements.

                                                  31
                               DEPARTMENT OF THE TREASURY
                                    UNITED STATES MINT
                                 STATEMENT OF FINANCING
                           FOR THE YEAR ENDED SEPTEMBER 30, 2005
                                                 (In Thousands)


Resources Used to Finance Activities:

Budgetary Resources Obligated
Obligations Incurred                                                                   $1,048,090
Less: Spending Authority from Offsetting Collections and Recoveries                     1,087,123
Net Obligations                                                                           (39,033)

Other Resources
Transfers to the Treasury General Fund On-Budget                                          (45,000)
Transfers to the Treasury General Fund Off-Budget                                        (730,000)
Imputed Financing from Costs Absorbed by Others (Note 10)                                  10,753
Other Financing Sources (Seigniorage) (Note 14)                                           722,686
Net Other Resources Used to Finance Activities                                            (41,561)
Total Resources Used to Finance Activities                                                (80,594)

Resources Used to Finance Items Not Part of the Net Cost of Operations
Change in Budgetary Resources Obligated for Goods, Services and Benefits Ordered but
 Not Yet Provided                                                                         (10,520)
Resources that Finance the Acquisition of Assets or Liquidation of Liabilities              8,034
Other                                                                                       7,314
Total Resources Used to Finance Items Not Part of the Net Cost of Operations                4,828
Total Resources Used to Finance the Net Cost of Operations                                (85,422)

Components not Requiring or Generating Resources in the Current Period
Depreciation and Amortization                                                              44,396
Revaluation of Assets                                                                       2,853
Other                                                                                      (3,115)
Total Components of Net Revenue from Operations that will not require or Generate
  Resources                                                                                44,134
Total Components of Net Revenue from Operations that will not require or Generate
 Resources in the Current Period                                                           44,134
Net Revenue from Operations                                                              ($41,288)




The accompanying notes are an integral part of these financial statements.


                                                        32
                      DEPARTMENT OF THE TREASURY
                           UNITED STATES MINT
                    STATEMENT OF CUSTODIAL ACTIVITY
                  FOR THE YEAR ENDED SEPTEMBER 30, 2005
                                           (In Thousands)




Revenue Activity
  Sources of Cash Collections:

  Sale of Treasury Silver (Note 20)                                          $52,745

Total Revenue Received                                                       52,745

Disposition of Custodial Revenue & Collections

  Transferred to the General Fund                                            52,745

  Total Disposition of Custodial Revenue                                     52,745

Net Custodial Activity                                                           $0




The accompanying notes are an integral part of these financial statements.

                                                33
                                      DEPARTMENT OF THE TREASURY
                                           UNITED STATES MINT
                                   NOTES TO THE FINANCIAL STATEMENTS
                                  FOR THE YEAR ENDED SEPTEMBER 30, 2005


(Dollars are in thousands except Fine Troy Ounce information)


Note 1 Summary of Significant Accounting Policies

Reporting Entity
Established in 1792, the United States Mint is a bureau of the Department of the Treasury (Treasury). The mission of the
United States Mint is to manufacture coins for general circulation, to manufacture and sell numismatic products for the benefit
of the federal government and various beneficiary organizations, and to protect certain federal assets in its custody.
Numismatic products include medals, proof coins, uncirculated coins, platinum, gold, and silver bullion coins, and
commemorative coins. Custodial assets consist of United States’ gold and silver metal reserves. These custodial reserves are
often referred to as “deep storage” and “working Stock” and are reported on the Balance Sheet.

Manufacture of numismatic products is financed principally through sales to the public. Manufacture of circulating coinage is
financed through sales of coins at face value to the Federal Reserve System. Activities related to protection of federal custodial
assets are funded by revenues and financing sources received by the United States Mint Public Enterprise Fund (PEF).

Pursuant to Public Law 104-52, Treasury Postal Service and General Government Appropriation Bill for FY 1996, the PEF
was established to account for all revenues and expenses related to production and sale of numismatic products and circulating
coinage and protection activities. Expenses accounted for in this fund include the cost of metals used in circulating coin
production, the cost of metals (gold, silver, platinum, cupro-nickel, manganese and zinc) used in numismatic coin production,
fabrication and transportation costs for metals used in circulating coinage and numismatic products, and costs of transporting
circulating coinage between the United States Mint production facilities and Federal Reserve Banks (FRB). Other
costs/expenses accounted for in this fund include costs related to research and development and purchases of equipment, as
well as capital improvements and protection costs. P.L. 104-52 states that any amount in the PEF that is determined to be in
excess of the amount required by the PEF shall be transferred to the Treasury.

Treasury’s Bullion Fund (Bullion Fund) is used to account for United States gold and silver reserves. A separate Schedule of
Custodial Gold and Silver Reserves has been prepared for the “Deep Storage” portion of the Treasury gold and silver reserves
for which the United States Mint acts as custodian.

Basis of Accounting and Presentation
The accompanying Financial Statements were prepared in conformity with the reporting format promulgated by the Office of
Management and Budget (OMB) Circular A-136, “Financial Reporting Requirements.” The United States Mint has
historically prepared its financial statements in accordance with accounting principles generally accepted in the United States
of America (US GAAP), based on accounting standards issued by the Financial Accounting Standards Board (FASB), the
private-sector standards-setting body. However, during FY 2005, the United States Mint converted to preparing its financial
statements based on accounting standards issued by the Federal Accounting Standards Advisory Board (FASAB), which was
designated by the American Institute of Certified Public Accountants (AICPA) as the standard-setting body for financial
statements of federal government entities, with respect to the establishment of US GAAP. The United States Mint’s financial
statements have been prepared to report the financial position, net cost of operations, changes in net position, budgetary
resources, reconciliation of net costs to budgetary obligations, and custodial activity, as required by the Chief Financial
Officers Act of 1990.

Management uses estimates and assumptions in preparing financial statements. Those estimates and assumptions affect the
reported amounts of assets and liabilities, the disclosure of contingent assets and liabilities, and the reported revenues and
expenses. Actual results could differ from those estimates. Accounts subject to estimates include depreciation, imputed costs,
payroll and benefits, accrued worker’s compensation, and unemployment benefits.

                                                               34                                                    (Continued)
The accompanying financial statements have been prepared on the accrual basis of accounting. Under the accrual method,
revenues and other financing sources are recognized when earned and expenses are recognized when a liability is incurred,
without regard to receipt or payment of cash. All intra-United States Mint transactions and balances have been eliminated.

Earned Revenues and Other Financing Sources (Seigniorage)
Circulating Sales: P.L. 104-52, establishing the PEF, provides for the sale of circulating coinage at face value to the Federal
Reserve System. Revenue from the sale of circulating coins is recognized when the product is shipped to the FRB.

Revenue from the sale of circulating coins to the FRB and numismatic sales of circulating coins is limited to the recovery of
the cost of manufacturing those coins. The difference between the face value of circulating coins sold and the total cost of
metals, manufacturing and transportation of those coins is considered a financing source in accordance with FASAB
guidelines.

Other Financing Sources (Seigniorage) is the face value of newly minted coins less the cost of production (which includes the
cost of the metal, manufacturing, and transportation). Other financing sources (Seigniorage) results from the sovereign power
of the Government to directly create money and, although not an inflow of resources from the public, does increase the
Government's net position in the same manner as an inflow of resources. Because it is not demanded, earned, or donated, it is
an other financing source rather than revenue. Other financing sources (Seigniorage) is recognized when coins are shipped to
the FRB in return for deposits.

Numismatic Sales: Revenue from numismatic sales to the public is recognized when products are shipped to customers. Prices
for numismatic products are based on the product cost plus a reasonable profit. Bullion products are priced based on the market
price of the precious metals plus a premium to cover manufacturing costs and profit.

Rental Revenue: The United States Mint receives rental revenue from floor space that is subleased in two United States Mint
facilities located in Washington, D.C. The space is subleased to other federal government entities. For the purpose of
presentation rental revenue is combined with numismatic sales on the statement of net cost.

Protection Revenue: This is derived from revenue received for the storage of goods for other federal entities and
reimbursement for protection services provided after hurricane Katrina.

Fund Balance with Treasury
All cash is maintained at the Treasury. Fund Balance with Treasury is the aggregate amount of the United States Mint’s cash
accounts with the U.S. Government’s central accounts from which the United States Mint is authorized to make expenditures
and pay liabilities. It is an asset because it represents the United States Mint’s claim to the U.S. Government resources.

Accounts Receivable
Accounts receivable are amounts due to the United States Mint from the public and other federal agencies. An allowance for
uncollectible customer accounts receivable from the public is established for all accounts that are more than 180 days past due.
However, the United States Mint will continue collection action as specified by the Debt Collection Improvement Act of 1996.

Inventories and Related Property
Inventories of circulating and numismatic coinage that do not contain either gold or silver are valued at the lower of cost or
market. Cost of the metal and fabrication components of the inventories are determined using a weighted average inventory
methodology. Conversion costs, i.e., the cost to convert the fabricated blank into a finished coin, are valued using a standard
cost methodology.

Numismatic coinage containing Treasury gold or silver does not include the value of the Treasury gold or silver since this is a
non-entity asset. Those costs appear as “Custodial Gold and Silver Reserves” and are valued at the statutory rate of $42.2222
per fine troy ounce (FTO) gold and $1.292929292 per FTO silver.

Mint owned platinum and silver is valued at the lower of cost or market using a weighted average inventory methodology.



                                                              35                                                   (Continued)
Custodial Gold and Silver Reserves
Custodial gold and silver reserves consist of both “Deep Storage” and “Working Stock” gold and silver.

Deep Storage is defined as that portion of the U.S. Government-owned gold and silver Bullion Reserve which the Mint secures
in sealed vaults. Deep Storage gold comprises the vast majority of the Reserve and consists primarily of gold bars.

Working Stock is defined as that portion of the U.S. Government-owned gold and silver Bullion Reserve which the Mint uses
as the raw material for minting congressionally authorized coins. Working Stock gold comprises only about one percent of the
Gold Bullion Reserve and consists of bars, blanks, unsold coins, and condemned coins.

Treasury allows the United States Mint to use its gold and silver as working stock. Generally, the United States Mint will
replace its working stock when used in production with purchases of gold and silver on the open market. In those cases where
the gold or silver is not replaced, the United States Mint reimburses Treasury the market value of the depleted gold or silver.

Supplies
Supplies are items that are not considered inventory and are not a part of the finished product. These items include plant
engineering and maintenance supplies. Supplies are accounted for using the consumption method, whereby supplies are
recognized as assets upon acquisition and expensed as they are consumed.

Advances and Prepayments
Payments in advance of the receipt of goods and services are recorded as advances and prepaid expenses at the time of
prepayment and are expensed when related goods and services are received.

Property, Plant and Equipment
Property, plant and equipment are valued at cost less accumulated depreciation. The United States Mint’s threshold for
capitalizing new property, plant and equipment is $25,000 for single purchases and $500,000 for bulk purchases. Depreciation
is computed on a straight-line basis over the estimated useful lives of the related assets as follows:

    Computer Equipment                                             3 to 5 years
    ADP Software                                                   2 to 10 years
    Machinery and Equipment                                        7 to 20 years
    Structures, Facilities and Leasehold Improvements              10 to 30 years

Major alterations and renovations are capitalized over the shorter of a 20-year period or the remaining useful life of the asset
and depreciated using the straight-line method, while maintenance and repair costs are charged to expense as incurred. There
are no restrictions on the use or convertibility of general property, plant and equipment.

Liabilities
Liabilities represent actual and estimated amounts likely to be paid as a result of transactions or events that have already
occurred. All liabilities covered by budgetary resources can be paid from revenues received from the United States Mint PEF.

Surcharges
Legislation authorizing commemorative programs often requires that the PEF remit a portion of the sales proceeds to
beneficiary organizations. These amounts are defined as "Surcharges." A surcharges payable is established for surcharges
received but not yet paid to the beneficiary.




                                                              36                                                   (Continued)
Pursuant to the P.L. 104-208, Omnibus Consolidated Appropriations for Fiscal Year 1997 (the Act), benefiting organizations
cannot receive surcharge payments unless all of the United States Mint’s operating costs of the coin program are fully
recovered. The United States Mint may make interim surcharge payments during a commemorative program if the benefiting
organization meets the eligibility criteria in the Act, if the profitability of the program is determinable and if the United States
Mint is assured it is not at risk of a loss. P.L. 108-15, American 5-Cent Coin Design Continuity Act of 2003, contains a
provision that beneficiary organizations have two years from the end of the program sales to meet the requirements of P.L.
104-208. If the requirements are not met within two years, the surcharges collected are to be deposited in the Treasury as
miscellaneous receipts. Additionally, P.L. 108-15 changed the fund raising requirement for beneficiary organizations from an
amount equal to the maximum surcharges possible based on the maximum mintage to an amount equal to the surcharges
actually collected based on sales.

Unearned Revenues
These are amounts received from customers for which the numismatic products have not been shipped.

Return Policy
If for any reason a customer is dissatisfied, the entire product must be returned within 30 days of receiving the order to receive
a refund or replacement. Shipping charges are not refunded. Further, the United States Mint will not accept partial returns nor
issue partial refunds. Historically, the Mint receives very few returns, which are immaterial. Therefore, no reserve for returns is
considered necessary.

Shipping and Handling
The United States Mint reports shipping and handling cost as Cost of Goods Sold and not as part of Selling or General and
Administrative expenses. General postage costs for handling administrative functions are reported as part of the United States
Mint’s General and Administrative Expenses.

Annual, Sick and Other Leave
Annual leave is accrued when earned and reduced as leave is taken. The balance in the accrued leave account is calculated
using current pay rates. Sick leave and other types of non-vested leave are charged to operating costs as they are used.

Accrued Workers Compensation and Other Actuarial Liabilities
The Federal Employees' Compensation Act (FECA) provides income and medical cost protection to cover federal civilian
employees injured on the job, employees who have incurred a work-related injury or occupational disease, and to pay
beneficiaries of employees whose deaths are attributable to job-related injuries or occupational disease. The FECA program is
administered by the United States Department of Labor (DOL), which pays valid claims and subsequently seeks
reimbursement from the United States Mint for these paid claims.

The FECA liability is based on two components. The first component is based on actual claims paid by DOL but not yet
reimbursed by the United States Mint. There is generally a two-to three-year time period between payment by DOL and
reimbursement to DOL by the United States Mint. The second component is the actuarial liability, which estimates the liability
for future payments as a result of past events. The actuarial liability includes the expected liability for death, disability,
medical, and miscellaneous cost for approved compensation cases.

Displays and Archives
The United States Mint has a display area at each of its facilities and maintains archives at its headquarters in Washington,
D.C. The displays and archives include valuable coins and commemoratives minted domestically and internationally and other
artifacts related to minting operations. Most of these items are not included in balances reported in these financial statements.
Records are maintained of all coins, commemoratives and valuable artifacts. Physical inspections are performed to assure
accountability.

Protection Costs
Virtually all of the Treasury’s gold and silver reserves are in the custody of the United States Mint, which is responsible for
safeguarding the reserves. These costs are borne by the United States Mint, but are not directly related to the circulating or
numismatic coining operations of the United States Mint. Organizationally, the Protection Strategic Business Unit is a separate
line of business from coining operations.
                                                                37                                                    (Continued)
Tax Exempt Status
As an agency of the federal government the United States Mint is exempt from all income taxes imposed by any governing
body, whether it is a federal, state, commonwealth, local, or foreign government.

Concentrations
The United States Mint purchases all of the coil used in the production of its circulating products from two vendors at
competitive market prices.

Transfers to the Treasury General Fund
The United States Mint transfers to the Treasury General Fund amounts in the PEF determined to be in excess of the amounts
required for United States Mint operations and programs. These amounts are generated from the other financing sources
(Seigniorage) derived from the sale of Circulating coins and from net revenues generated from the sale of Numismatic
products. Protection costs, except those costs allocated to circulating coin production, are deducted from amounts generated
from the sale of Numismatic coins.

Excess amounts generated from other financing sources (Seigniorage) are off budget and deposited in the Treasury General
Fund. Off-budget means that these funds cannot be used to reduce the annual budget deficit. Instead they are used as a
financing source; i.e., they reduce the amount of cash that Treasury has to borrow to pay interest on the national debt.

Excess amounts from revenues generated from the sale of Numismatic products are on budget and deposited in the Treasury
General Fund. Unlike Seigniorage, the Numismatic transfer is available as current operating revenue or can be used to reduce
the annual budget deficit.

Budgetary Resources
The United States Mint receives all of its financing from the public, which the United States Mint does not obligate until
apportioned by OMB. These apportionments are considered budgetary resources. The United States Mint’s Budgetary
Resources consist of unobligated balances, transfers, and spending authority from offsetting collections, which is net of
amounts temporarily or permanently not available.

Included in temporarily and permanently not available are transfers to the General Fund. Temporarily not available are
circulating coin transfers to the General Fund that have been specifically set aside for possible release by OMB, however the
United States Mint has no intent on acquiring these funds. Permanently not available are Numismatic coin transfers to the
General Fund.




                                                             38                                                 (Continued)
Note 2 Non-Entity Assets
Components of Non-entity Assets at September 30 are as follows:

        Custodial Gold Reserves (Deep Storage)                                                             $10,355,539
        Custodial Silver Reserves (Deep Storage)                                                                 9,148
        Custodial Gold Reserves (Working Stock)                                                                117,514
        Custodial Silver Reserves (Working Stock)                                                               11,539
     Total Non-entity Assets                                                                                10,493,740
     Total Entity Assets                                                                                       770,475
Total Assets                                                                                               $11,264,215


Entity assets are assets that the reporting entity has authority to use in its operations. The United States Mint management has
legal authority to use entity assets to meet entity obligations. However, all assets in the possession of the United States Mint
are not entity assets. Treasury allows the United States Mint to use its working stock gold and silver in the production of coins.
The United States Mint must replace the working stock or pay the Treasury General Fund for the used portion. Thus, Custodial
Gold and Silver Reserves and Treasury working stock gold and silver are all considered Non-entity assets.

Note 3 Fund Balance with Treasury
Fund Balance with Treasury at September 30 consist of:

Revolving Fund                                                                                            $279,387
    Total Fund Balance with Treasury                                                                      $279,387

Status of Fund Balance with Treasury

Unobligated Balance                                                                                       $124,323
Obligated Balance, Not Yet Disbursed                                                                       155,064
Total                                                                                                     $279,387

The United States Mint does not receive appropriated budget authority. The fund balance with Treasury is entirely available
for use to support the United States Mint operations. At September 30, 2005, the revolving fund balance includes $10.7
million in restricted amounts for possible payment of surcharges and commissions to beneficiary organizations.

Note 4 Accounts Receivable, Net
Components of accounts receivable at September 30 are as follows:

                                                      Gross Receivables       Allowance           Net Receivables
Intragovernmental                                                 $58                       -                  $58
With the Public                                                15,030                    (130)              14,900
    Total Accounts Receivable                                 $15,088                   ($130)             $14,958

Intragovernmental accounts receivable represent amounts due from other federal agencies for products or services.
Receivables with the public primarily consist of circulating coin shipments to the FRB and metal scrap and webbing
sold to fabricators.




                                                               39                                                    (Continued)
Note 5 Advances and Prepayments
The components of advances and prepayments at September 30 are as follows:


Intragovernmental                                                                                      $4,114

With the Public                                                                                         1,612

    Total Other Assets                                                                                 $5,726

Intragovernmental advances and prepayments include $1.6 million that the United States Mint paid the Treasury Working
Capital Fund (the Fund), for a variety of centralized services. Also included in intragovernmental advances are the progress
payments (advances) for equipment and building improvements under construction. The United States Mint initiated an entity-
wide security upgrade, which requires progress payments be made to the construction contractors, which are other federal
agencies. As of September 30, 2005, the balance for such payments was $2.2 million.

Advances and Prepayments with the public consist primarily of advances for freight forwarding.




                                                            40                                                  (Continued)
Note 6 Custodial Gold and Silver Reserves
As custodian, the United States Mint is responsible for safeguarding much of the nation’s gold and silver reserves, which
include Deep Storage and Working Stock. The asset and the custodial liability to Treasury are reported on the Balance Sheet at
statutory rates. In accordance with 31USC5117(b) and 31USC5116(b) (2) statutory rates of $42.2222 FTO of gold and
$1.292929292 per FTO of silver are used to value the entire custodial reserves held by the United States Mint.

Amounts and values of custodial gold and silver in the custody of the United States Mint at September 30
are as follows:

Gold - Deep Storage:
 Inventories (FTO)                                                            245,262,897
 Market Value ($ per FTO)                                                         $473.25
 Market Value ($ in thousands)                                               $116,070,666
 Statutory Value ($ in thousands)                                             $10,355,539

Gold - Working Stock:
 Inventories (FTO)                                                               2,783,219
 Market Value ($ per FTO)                                                          $473.25
 Market Value ($ in thousands)                                                  $1,317,158
 Statutory Value ($ in thousands)                                                 $117,514

Silver - Deep Storage:
   Inventories (FTO)                                                             7,075,171
   Market Value ($ per FTO)                                                          $7.53
   Market Value ($ in thousands)                                                   $53,276
   Statutory Value ($ in thousands)                                                 $9,148

Silver - Working Stock:
   Inventories (FTO)                                                             8,924,829
   Market Value ($ per FTO)                                                          $7.53
   Market Value ($ in thousands)                                                   $67,204
   Statutory Value ($ in thousands)                                                $11,539
    Total Market Value of Custodial Gold and
      Silver Reserves ($ in thousands)                                       $117,508,304
    Total Statutory Value of Custodial Gold and
      Silver Reserves ($ in thousands)                                         $10,493,740



Note 7 Inventory and Related Property
The components of inventories and related property at September 30 are summarized below:



Raw Materials                                                                                              $50,434
Work-In-Process                                                                                             46,384
Inventory held for current sale                                                                             66,857
Inventory held in reserve for future sale                                                                   21,955
    Total Inventory and Related Property                                                               $185,630


Raw materials consist of unprocessed materials and byproducts of the manufacturing process. Work-in-process consist of semi-
finished materials. Inventory held for current sale is finished goods inventories and inventory held in reserve for future sale
consist of golden dollar coil.


                                                              41                                                     (Continued)
Note 8 Property, Plant and Equipment, Net
Components of property, plant and equipment at September 30 are as follows:


                                                                               Accumulated        Total Property,
                                                                            Depreciation and            Plant and
                                                           Asset Cost          Amortization       Equipment, Net
Land                                                           $2,529                       -              $2,529
Structures, Facilities and Leasehold Improvements             184,892                 (99,778)             85,114
Computer Equipment                                             38,956                 (23,938)             15,018
ADP Software                                                   96,493                 (73,108)             23,385
Construction-In-Progress                                       27,982                       -              27,982
Machinery and Equipment                                       210,532                 (92,979)            117,553
     Total Property, Plant and Equipment, Net                $561,384              ($289,803)           $271,581

United States Mint facilities used to manufacture circulating coinage and numismatic products are owned by the United States
Mint and located in San Francisco, California; Philadelphia, Pennsylvania; Denver, Colorado; and West Point, New York. In
addition, the United States Mint owns the land and buildings at the Fort Knox Bullion Depository in Kentucky.

Depreciation and amortization expenses charged to operations during the year ended September 30 were $44.4 million .

Note 9 Liabilities Not Covered by Budgetary Resources
Components of Liabilities Not Covered by Budgetary Resources at September 30 are as follows:

         Custodial Gold Reserves (Deep Storage)                                                     $10,355,539
         Custodial Silver Reserves (Deep Storage)                                                         9,148
         Working Stock Inventory-Gold                                                                   117,514
         Working Stock Inventory-Silver                                                                  11,539
     Total Liabilities Not Covered by Budgetary Resources                                           $10,493,740
     Total Liabilities Covered by Budgetary Resources                                                   112,951
Total Liabilities                                                                                   $10,606,691

Liabilities covered by budgetary resources include liabilities for which congressional action is not needed before budgetary
resources can be provided. Liabilities not covered by budgetary resources are custodial liabilities to Treasury that are entirely
offset by custodial gold and silver reserves held on behalf of the federal government.

Note 10 Retirement Plans and Other Post-employment Costs (Imputed Financing)
At the end of FY 2005, three hundred eighteen (318) United States Mint employees participated in the Civil Service
Retirement System (CSRS), to which the United States Mint contributes 25.0 percent of basic pay. On January 1, 1987, the
Federal Employees’ Retirement System (FERS) went into effect pursuant to P.L. 99-335. Most employees hired after
December 31, 1983 are automatically covered by FERS and Social Security. Employees hired prior to January 1, 1984 elected
to join FERS or remain in CSRS.

A primary feature of FERS is that it offers a savings plan to which the United States Mint automatically contributes one
percent of basic pay and matches any employee contributions up to an additional four percent of basic pay. In FY2005, FERS
employees were allowed a maximum annual contribution of 15 percent of salary to a maximum of $14,000. Employees
participating in FERS are covered by the Federal Insurance Contribution Act (FICA) for which the United States Mint
contributes a matching amount to the Social Security Administration.




                                                               42                                                   (Continued)
Although the United States Mint contributes a portion for pension benefits and makes the necessary payroll deductions, it is
not responsible for administering either CSRS or FERS. Therefore, the United States Mint does not report CSRS or FERS
assets, accumulated plan benefits or unfunded liabilities, if any, applicable to the United States Mint employees. Reporting
such amounts is the responsibility of the Office of Personnel Management (OPM). OPM has provided the United States Mint
with certain cost factors that estimate the cost of providing the pension benefit to current employees. The cost factors of 25.0
percent of basic pay for CSRS-covered employees and 12.0 percent of basic pay for FERS-covered employees were in use for
FY 2005.

The amounts that the United States Mint contributed to the retirement plans and social security for the year ended
September 30 are as follows:



Social Security System                                                                                     $8,456
Civil Service Retirement System                                                                             1,524
Federal Employees Retirement System
(Retirement & Thrift Savings Plan)                                                                         14,987
    Total Retirement Plans and Other Post-employment Cost                                                 $24,967


The United States Mint is also recognizing its share of the future cost of post-retirement health benefits and life insurance for
employees while they are still working with an offset classified as imputed financing. OPM continues to report the overall
liability of the federal government and make direct recipient payments. OPM has also provided certain cost factors that
estimate the true cost of providing the post-retirement benefit to current employees. The cost factor relating to health benefits
is $4,903 per employee enrolled in the Federal Employees Health Benefits Program. The cost factor relating to life insurance is
two-one hundredths percent (.02%) of basic pay for employees enrolled in the Federal Employees Group Life Insurance
Program.

The amount of imputed cost incurred by the United States Mint for the year ended September 30 is as follows
(before the offset for imputed financing):




Health Benefits                                                                                            $8,050
Life Insurance                                                                                                 22
Pension Expense                                                                                             2,681
    Total Imputed Cost                                                                                    $10,753




                                                               43                                                    (Continued)
Note 11 Lease Commitments
The United States Mint as Lessee:

The United States Mint leases office and warehouse space from commercial vendors and the General Services Administration
(GSA). In addition, the agency leases copier and other office equipment from commercial vendors and vehicles from GSA.
With the exception of the commercial leases on two office buildings in Washington, DC, all leases are one-year, or one-year
with renewable option years. The two building leases have terms of 20- and 10-years, respectively. Since all of the United
States Mint’s leases are considered cancelable, there are no minimum lease payments due, and no footnote disclosure on future
lease payments is required.

The United States Mint as Lessor:

The United States Mint sub-leases office space to several other federal entities in the two leased buildings in Washington, DC.
The leases vary from one-year with option years to multiple year terms. As of September 30, 2005, the Mint sub-leased in
excess of 135,000 square feet in two leased buildings. As of September 30, 2005, tenants include: the Internal Revenue
Service, the Treasury Executive Institute, the Bureau of the Public Debt, the U.S. Customs Service and Border Protection, and
the U.S. Marshals Service. All of the subleases are operating leases.

Future Projected Receipts:
(In Thousands)

Fiscal Year                                                Land and Buildings
2006                                                                 $4,453
2007                                                                    416
2008                                                                    176
2009                                                                    180
2010                                                                    183
After 2010                                                              234
Total Future Operating
Lease Receivables                                                      $5,642



Note 12 Contingencies
The United States Mint is subject to legal proceedings and claims which arise in the ordinary course of its business. Judgments,
if any, resulting from pending litigation against the United States Mint generally would be satisfied from the PEF. Likewise,
under the Notification and Federal Employee Antidiscrimination and Retaliation Act of 2002 (No FEAR Act, Public Law 107-
174), settlements and judgments related to acts of discrimination and retaliation for whistleblowing are the responsibility of the
United States Mint and will be paid from the PEF. In the opinion of management, the ultimate resolution of these actions will
not materially affect the United States Mint’s financial position or the results of its operations.

For the past few years, the United States Mint disclosed in the Notes to the Financial Statements a contingent liability
estimated at $32 million related to a class action case alleging discrimination and harassment at the Denver Mint. In early
2006, the agency and the class reached a proposed tentative settlement of two cases for $9.3 million which has been accrued
and presented with accounts payables as of September 30, 2005. The tentative settlement for one of the cases totaling $8.99
million was subject to a fairness review by the Equal Employment Opportunity Commission. On August 23, 2006, the EEOC
Administrative Judge approved the settlement agreement as a fair and just resolution of the matter.




                                                               44                                                    (Continued)
Note 13 Intragovernmental Costs and Earned Revenue
Intragovernmental costs and earned revenue reflect transactions where both the buyer and seller are federal entities. Revenue
with the public reflects transactions for goods or services with a non-federal entity. However, if a federal entity purchases
goods or services from another federal entity and sells those goods to the public, the revenue would be classified as “with the
public,” but the related expense would be classified as “intragovernmental.” The purpose for this classification is to enable the
federal government to prepare consolidated financial statements. The following table provides earned revenues, gross cost, and
net costs by program.”




                                                               45                                                   (Continued)
NUMISMATIC PRODUCTION AND SALES
  Cost:
    Intragovernmental:
        Selling, General and Administrative          $22,405
        Imputed Costs                                  1,075
    Total Intragovernmental Costs                     23,480
    Public:
        Cost of Goods Sold                           443,409
        Selling, General and Administrative           57,183
    Total Public Cost                                500,592
    Gross Cost                                       524,072
  Revenue:
    Intragovernmental:
        Less Rent Revenues                             6,533
        Less Other Intragovernmental Revenues             93
    Total Intragovernmental Revenue                    6,626
    Public                                           596,170
    Total Earned Revenue                             602,796

Net Program Revenue                                   (78,724)

CIRCULATING PRODUCTION AND SALES
  Cost:
    Intragovernmental:
        Selling, General and Administrative           32,529
        Imputed Costs                                  9,678
    Total Intragovernmental Costs                     42,207
    Public:
        Cost of Goods Sold                           336,209
        Selling, General and Administrative           53,412
        Other Costs and Expenses (Mutilated)          13,618
    Total Public Cost                                403,239
    Gross Cost                                       445,446
  Revenue:
    Public                                           445,446
    Total Earned Revenues                            445,446

Net Program Revenue                                         -

Net Revenue Before Protection of Assets               (78,724)

PROTECTION OF ASSETS
   Public:
      Protection Cost                                 37,543
      Total Earned Revenues                             (107)

Net Cost of Protection of Assets                      37,436

Net Revenue from Operations                          ($41,288)




                                                46               (Continued)
Note 14 Earned Revenues and Other Financing Sources (Seigniorage)
Earned revenues and other financing sources (Seigniorage) whether from the FRB or from the public are recognized
upon the shipment of circulating coins and numismatic sales of circulating coins. A portion of the earned revenue
displayed on the United States Mint’s Statement of Net Cost is generated by goods and services provided to the public or to
other federal entities. Revenue is limited to the recovery of all costs associated with the production, administration and
distribution of Circulating coins (both to the FRB and to the public), and payment by the United States Mint for mutilated and
uncurrent coins. The difference between the face value of coins and cost is other financing sources (Seigniorage). Other
financing sources (Seigniorage) is returned to the Treasury General Fund as an off-budget receipt. All costs are recovered from
numismatic sales from which a slight profit is made and returned to the Treasury General Fund as an on-budget receipt.

The components of circulating coins and numismatic sales of circulating coins for the year ended
September 30 are as follows:


Revenue-FRB                                                                                           $445,446
Other Financing Sources (Seigniorage)-FRB                                                               699,398
   Total Circulating Coins                                                                           $1,144,844



Revenue-with the public                                                                                 $14,575
Other Financing Sources (Seigniorage)-with the public                                                    23,288
   Total Numismatic Sales of Circulating Coins                                                          $37,863

Note 15 Related Parties
The United States Mint is subject to management control by the Secretary of the Treasury.

The United States Mint shipped approximately $1.1 billion in coins to the Federal Reserve Banking System in FY 2005.

Numismatic checks and credit card orders are processed by a commercial bank. Fees associated with these services are
absorbed by the Treasury and are not reflected in the United States Mint’s financial statements.

Note 16 Apportionment Categories of Obligations Incurred
The United States Mint receives apportionments of its resources from the OMB. An apportionment is a plan, approved by
OMB, to spend resources provided by law. All United States Mint obligations are classified as reimbursable as they are
financed by offsetting collections received in return for goods and services provided. The OMB usually uses one of two
categories to distribute budgetary resources. Category A apportionments distribute budgetary resources by fiscal quarters.
Category B apportionments typically distribute budgetary resources by activities, projects, objects or a combination of these
categories. The United States Mint has only category B apportionments.

Details of Obligations Incurred as of September 30 are as follows:
(in thousands)

Reimbursable:
   Category B
      Total Operating Expenses                                                                        $1,028,540
      Numismatic Capital                                                                                  5,744
      Circulating and Protection Capital                                                                 13,806
Total Apportionment Categories of Obligations Incurred                                               $1,048,090




                                                              47                                                   (Continued)
Note 17 Explanation of Differences Between the Statement of Budgetary Resources and the Budget of the
United States Government
Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other Financing Sources and
Concepts for Reconciling Budgetary and Financial Accounting, requires an explanation of material differences between
budgetary resources available, the status of those resources, and outlays as presented in the Statement of Budgetary Resources
to the related actual balances published in the Budget of the United States Government (President’s Budget). The President’s
Budget was published in February 2006 and made available through OMB.
The President's Budget submission was based on estimates. The Mint prepared the Statement of Budgetary Resources based
on actual documentation that better reflects the status of the Mint's budgetary resources.

                                                                             Statement of
                                                                              Budgetary             President's
United States Mint Public Enterprise Fund                                     Resources               Budget

Total Budgetary Resources                                                          $1,172,413          $1,051,255

Status of Budgetary Resources:
   Obligations Incurred                                                             1,048,090             989,369
   Unobligated Balances-available                                                     124,323              61,886
Total Status of Budgetary Resources                                                $1,172,413          $1,051,255
Net Outlays                                                                           ($1,839)             ($1,839)


Note 18 Legal Arrangements Affecting Use of Unobligated Balances
United States Mint PEF establishes that all receipts from United States Mint operations and programs, including the production
and sale of numismatic items, the production and sale of circulating coinage, the protection of Government assets, and gifts
and bequests of property, real or personal shall be deposited into the United States Mint PEF and shall be available without
fiscal year limitations. Any amount that is in excess of the amount required by the United States Mint to cover obligations shall
be transferred to the Treasury for deposit as miscellaneous receipts. In FY 2005, the United States Mint transferred a total of
$775 million in excess receipts to the Treasury General Fund.

Note 19 Collections and Subsequent Events
Subsequent to year-end, circulating transfers of $730 million to the General Fund were excluded from collections in the
Statement of Budgetary Resources and Statement of Financing to conform with and to be consistent with the Department of
Treasury reporting of Seigniorage.

Note 20 Custodial Activity
The United States Mint paid $52.7 million to the Department of the Treasury for 8,790,913.21 FTO of Treasury's silver that
was purchased by the United States Mint to be used in the production of coins. The United States Mint paid Treasury six
dollars an ounce for the silver.

At the end of FY05, the United States Mint owed Treasury 4,457,229.59 FTO’s for silver that was sold and not replaced. Part
of the purchase was to reimburse Treasury for that silver used as opposed to the United States Mint purchasing the silver on the
open market. In addition, Treasury decided that an additional 4,333,683.62 FTO’s was not needed to be held by Treasury.
Therefore, that silver was purchased and became United States Mint owned silver as opposed to Treasury silver. At the end of
FY05, the amount of Treasury owned silver held by the United States Mint as Custodian was exactly 16 million FTO’s.




                                                               48
THIS PAGE INTENTIONALLY LEFT BLANK
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




             Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General
United States Department of the Treasury:

Director
The United States Mint:

We have audited the accompanying balance sheet of the United States Mint (Mint) as of
September 30, 2005 and the related statements of net cost, changes in net position, financing, and custodial
activity, and the combined statement of budgetary resources, for the year then ended, and have issued our
report thereon dated June 16, 2006, except as to note 19, which is dated November 3, 2006. We conducted
our audit in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 01-
02, Audit Requirements for Federal Financial Statements.

In planning and performing our fiscal year 2005 audit, we considered the Mint’s internal control over
financial reporting by obtaining an understanding of the Mint’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary to achieve the objectives
described in Government Auditing Standards and OMB Bulletin No. 01-02. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982. The objective of our audit was not to provide assurance on the Mint’s internal control over
financial reporting. Consequently, we do not provide an opinion thereon.

Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. Under standards issued by
the American Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect the Mint’s ability to record, process, summarize, and
report financial data consistent with the assertions by management in the financial statements. Material
weaknesses are reportable conditions in which the design or operation of one or more of the internal
control components does not reduce to a relatively low level the risk that misstatements, in amounts that
would be material in relation to the financial statements being audited, may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions. Because
of inherent limitations in any internal control, misstatements due to error or fraud may occur and not be
detected.
                                                                 49
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
In our fiscal year 2005 audit, we noted certain matters, discussed in Exhibit I, involving the internal control
over financial reporting and its operation that we consider to be a reportable condition. However, the
reportable condition is not believed to be a material weakness. Management responses are included in
Exhibit II.

Additional Required Procedures

As required by OMB Bulletin No. 01-02, with respect to internal control related to performance measures
determined by management to be key and reported in the Management Discussion and Analysis section, we
obtained an understanding of the design of significant internal controls relating to the existence and
completeness assertions. Our procedures were not designed to provide assurance on internal control over
reported performance measures and, accordingly, we do not provide an opinion thereon.

                                                  *****

We noted certain additional matters that we reported to the management of the Mint in a separate letter
dated November 3, 2006.

This report is intended solely for the information and use of the Mint’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




June 16, 2006




                                                      50
                                                                                                         Exhibit I
                                        THE UNITED STATES MINT
                                              Reportable Condition

                                               September 30, 2005


Improvement is needed in Financial Accounting and Reporting

Appropriate management controls should be integrated into each policy and procedure established by the United
States Mint (Mint) to direct and guide its operations. Management controls are the organization, policies, and
procedures used by the Mint to reasonably ensure that: (i) programs achieve their intended results; (ii) resources
used are consistent with the Mint’s mission; (iii) programs and resources are protected from waste, fraud, and
mismanagement; (iv) laws and regulations are followed; and (v) reliable and timely information is obtained,
maintained, reported and used for decision making.

Management is responsible for developing and maintaining effective internal control. Effective internal control
provides assurance that significant weaknesses in the design or operation of internal control, that could adversely
affect the Mint’s ability to meet its objectives, would be prevented or detected in a timely manner.

The Federal Managers Financial Integrity Act of 1982 (FMFIA) establishes overall requirements with regard to
internal control. “The agency head must establish controls that reasonably ensure that: (i) obligations and costs
are in compliance with applicable law; (ii) funds, property, and other assets are safeguarded against waste, loss,
unauthorized use or misappropriation; and (iii) revenues and expenditures applicable to agency operations are
properly recorded and accounted for to permit the preparation of accounts and reliable financial and statistical
reports and to maintain accountability over the assets.”

The following paragraphs discuss weaknesses noted in the Mint’s internal control over financial reporting.

Assignment of Personnel Resources

Effective financial management requires sufficient human resources with appropriate skills and abilities. During
our audit, we noted that sufficient financial management personnel resources have not been assigned to perform
the many tasks needed to produce the financial statements and support the audit process. We noted that a small
core group has assumed responsibility for preparing the interim and final financial statements, developing year-
end estimates and accruals, processing year-end adjustments, and providing most of the documentation, including
explanations and justifications, needed to complete the audit in a timely manner. As a result, we experienced
delays in receiving subsidiary information that reconciles to the general ledger and some supporting
documentation requested during the audit.

While this small core group of personnel is to be commended for their high-quality work and dedication, the
Mint’s continuous reliance on the efforts of these individuals raises serious concerns about its ability to ensure
that future quarterly and annual financial statements will be submitted timely and the annual audit will be
completed on schedule.

Responsibility and accountability for compiling information and providing justification and explanations related
to the preparation of the Mint’s financial statements requires the involvement and input of many individuals and
activities, both within and outside the Office of Corporate Accounting, including the other Mint production
facilities. Moreover, assigning the varied responsibilities to a broader group of individuals would better provide
for the continuity of trained and knowledgeable personnel needed to prepare the financial statements and support
the audit process. It is also imperative that the Mint production facilities and department managers respond
timely and accurately to data request from the Office of Corporate Accounting.

                                                       51                                              (Continued)
                                                                                                        Exhibit I
                                        THE UNITED STATES MINT
                                              Reportable Condition

                                              September 30, 2005


Financial Management Oversight

Monitoring the effectiveness of internal control should occur in the normal course of business. In addition,
periodic review, reconciliations or comparisons of data should be included as part of the regular assigned duties
of personnel. Periodic assessments should be integrated as part of management’s continuous monitoring of
internal control, which should be ingrained in the Mint’s operations.

During our audit, we noted that management does not exercise appropriate oversight over the Mint production
facilities to ensure that transactions are appropriately recorded. We noted that financial management is
decentralized at the Mint production facilities and the current organizational structure provides the production
facilities with the authority to develop its own procedures. The policies and procedures performed varied
between production facilities, and in some instances, were not performed in accordance with Mint-wide policies
and procedures.

We also noted instances where the Mint incorrectly applied accounting standards (for example, revenue
recognition for consignment sales and asset capitalization), due to inadequate oversight by individuals who have
been assigned authority to perform management review functions. Also, there are no formal policies and
procedures that require reconciliations and journal entries to be signed-off by the preparer or reviewer. In
addition, some Mint personnel were not aware of the related Mint-wide policies and procedures, or the Mint did
not perform reviews to assess the sufficiency of financial policies and procedures

Property, Plant and Equipment Management

The Mint did not implement sufficient internal controls to ensure that property, plant and equipment were
adequately safeguarded from loss and properly accounted for. Internal control should be designed to provide
reasonable assurance regarding prevention or prompt detection of unauthorized acquisition, use or disposition of
assets.

During fiscal year 2005, we noted that the Mint conducted an annual physical inventory of property, plant and
equipment, and was unable to physically locate 301 items totaling approximately $99,398, primarily information
technology equipment, at Headquarters.

We also noted that the current procedures and internal controls do not provide adequate assurance that all capital
assets are properly reported in the financial statements. Specifically, we noted the following:

•     Construction-in-progress (CIP) includes certain research and development costs that should not be
      capitalized, and costs for projects that were determined to be completed.
•     “Assets held in stock” categories include certain assets that are actually in use and should be included in
      the appropriate property, plant and equipment category and depreciated.
•     Property, plant and equipment include assets that are not yet received and should be included in “Advances
      and Prepayments”.
•     Property, plant and equipment include certain transactions which should have been expensed (example,
      items below the capitalization threshold and repairs and maintenance items).

                                                       52                                             (Continued)
                                                                                                         Exhibit I
                                        THE UNITED STATES MINT
                                              Reportable Condition

                                               September 30, 2005


•     Property, plant and equipment include items which are no longer being used.
•     Property, plant and equipment include items that were not categorized in the proper category.
•     Assets physically inspected were not included in property, plant and equipment, as they did not have a
      property identification number.

Budgetary Resources Accounting

The Mint has historically used accounting standards issued by the Financial Accounting Standards Board
(FASB) and not by the Federal Accounting Standards Advisory Board (FASAB) as the guidance for preparing its
financial statements through fiscal year 2004. For fiscal year 2005, the Mint’s management elected to adopt and
prepare its financial statements in accordance with FASAB accounting standards, and this required the Mint to
account for and present transactions and balances on both a proprietary and budgetary basis. The Mint’s general
ledger system was implemented for presenting the financial statements in accordance with FASB accounting
standards, and accordingly does not include the budgetary accounts in the United States Government Standard
General Ledger that support accounting for the budgetary effects of transactions to ensure compliance with the
Federal Financial Management Improvement Act of 1996 (FFMIA).

Funds control is a vital component of any Federal government operation. It requires that an obligation be
recorded prior to disbursement of funds. When a disbursement is processed, the financial management systems’
funds control function should compare the amount to be disbursed to the remaining amount of the obligation to
ensure funds remain available. For fiscal year 2005, the Mint had to use a manual process to determine the
budgetary balances, as they do not have an integrated system to track and govern the status of obligations.
However, the use of a manual process subjects the Mint’s overall funds control objective to significant control
risk. Therefore, the Mint must have an automated funds control system to monitor and control the budgetary
resources process.

Recommendations:

We recommend that the Mint:

1.    Evaluate the existing financial management organizational structure and make appropriate changes to
      ensure that the Office of Corporate Accounting is provided with sufficient staff resources with the requisite
      skills and abilities to maintain the Mint’s accounting records and prepare timely financial reports.
2.    Establish procedures for performing periodic reviews to assess the sufficiency of financial policies and
      procedures and consistencies between production facilities.
3.    Develop procedures for providing oversight and guidance to the Mint production facilities and all
      departments within the Mint that provide key financial information.
4.    Implement formal policies and procedures that require reconciliation and other accounting records to be
      signed-off by both the preparer and a management level reviewer.
5.    Implement adequate security and physical control procedures to ensure that all assets are adequately
      safeguarded and properly accounted for.

                                                       53                                              (Continued)
                                                                                                       Exhibit I
                                       THE UNITED STATES MINT
                                             Reportable Condition

                                              September 30, 2005


6.    Perform an extensive physical inventory of its property, plant and equipment at all locations to identify
      assets without property identification number. Further, the policies and procedures over purchasing fixed
      assets should be strengthened to ensure that all assets are assigned a property identification number when
      received at the relevant locations.
7.    Implement policies and procedures requiring the program managers to communicate information regarding
      the status of the CIP projects to the Office of Corporate Accounting at or near each period end, and
      perform timely follow-up procedures to ensure that the Mint’s financial statements reflect the most current
      project status.
8.    Implement and follow existing Mint policies and procedures, including production facilities quality control
      procedures, to ensure that property, plant and equipment only includes costs for items meeting the
      definition of capitalizable general property, plant and equipment.
9.    Establish an internal review process that requires a supervisor to systematically review the transactions
      recorded in the Asset Management module of PeopleSoft timely. This will ensure that property, plant and
      equipment are properly capitalized and errors are identified and correctly timely.
10.   Develop and implement a general ledger system that fully uses the United States Government Standard
      General Ledger and will support accounting for the budgetary effects of transactions to ensure compliance
      with FFMIA.
11.   Implement integrated systems controls as soon as it practical to record obligations as incurred and manage
      funds control at the transaction level. In the interim, the Mint should develop Mint-wide policies and
      procedures for management to perform adequate review of all obligations, which will help to ensure that
      balances are accurately and timely adjusted on a monthly basis. The process should provide for central
      management control and review, to ensure adequate support for recorded amounts exists and that sufficient
      consideration is given to the legitimacy of unliquidated obligation amounts.




                                                      54
                                                                                        Exhibit I I
                           DEPARTMENT OF THE TREASURY 

                                  UNITED STATES M I N T 

                                 WASHINGTON, D.C. 20220 





                                       November 3,2006



KPMG LLP
2001 M Street N.W.
Washington, DC 20036

Ladies and Gentlemen:

We have reviewed the fiscal year 2005 draft auditors' report and are in substantial agreement
with the reported observations. The United States Mint recognizes the need for strong internal
controls and is taking corrective actions to address the noted deficiencies. We have made
significant progress toward resolving the reported issues and will continue to work with KPMG
and the Office of Inspector General in identifying the specific actions that will ensure we have
adequately identified and have taken appropriate corrective action.


                                             Sincerely,



                                             Patricia M. Greiner
                                             Chief Financial Officer
THIS PAGE INTENTIONALLY LEFT BLANK
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
United States Department of the Treasury:

Director
The United States Mint:

We have audited the accompanying balance sheet of the United States Mint (Mint) as of
September 30, 2005 and the related statements of net cost, changes in net position, financing, and custodial
activity, and the combined statement of budgetary resources for the year then ended, and have issued our
report thereon dated June 16, 2006, except as to note 19, which is dated November 3, 2006. We conducted
our audit in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 01-
02, Audit Requirements for Federal Financial Statements.

The management of the Mint is responsible for complying with laws, regulations, and contracts applicable
to the Mint. As part of obtaining reasonable assurance about whether the Mint’s fiscal year 2005 financial
statements are free of material misstatement, we performed tests of the Mint’s compliance with certain
provisions of laws, regulations, and contracts, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 01-02, including certain provisions referred to in the Federal
Financial Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws, regulations,
and contracts applicable to the Mint. However, providing an opinion on compliance with laws, regulations,
and contracts was not an objective of our audit and, accordingly, we do not express such an opinion.

The results of our tests of compliance with certain provisions of other laws, regulations, and contracts
discussed in the second paragraph of this report, exclusive of those referred to in FFMIA, disclosed no
instances of noncompliance or other matters that are required to be reported under Government Auditing
Standards or OMB Bulletin No. 01-02.

Under OMB Bulletin No. 01-02 and FFMIA, we are required to report whether the Mint’s financial
management systems substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
Section 803(a) requirements.



                                                                56
                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
The results of our tests of FFMIA disclosed an instance, described below, where the Mint’s financial
management systems did not substantially comply with the United States Government Standard General
Ledger at the transaction level.

The Mint has historically prepared its financial statements in accordance with accounting standards issued
by the Financial Accounting Standards Board (FASB). However, after fiscal year 2005, the Mint adopted
and prepared its financial statements in accordance with accounting standards issued by the Federal
Accounting Standards Advisory Board (FASAB). This required the Mint to account for and present
transactions and balances on both a proprietary and budgetary basis. The Mint’s general ledger system
was implemented for presenting the financial statements in accordance with FASB and not FASAB
accounting standards and accordingly does not include budgetary accounts. We recommend that the
United States Mint develop and implement a general ledger system that fully uses the United States
Government Standard General Ledger and will support accounting for the budgetary effects of
transactions to ensure compliance with FFMIA.

This report is intended solely for the information and use of the Mint’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




June 16, 2006




                                                   57
